AUDIT OF OFFICE OF JUSTICE PROGRAMS
  SOUTHWEST BORDER PROSECUTION
  INITIATIVE FUNDING RECEIVED BY
  LOS ANGELES COUNTY, CALIFORNIA

       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 



   Audit Report Number GR-60-10-010 

            September 2010 

           AUDIT OF OFFICE OF JUSTICE PROGRAMS
             SOUTHWEST BORDER PROSECUTION
             INITIATIVE FUNDING RECEIVED BY
             LOS ANGELES COUNTY, CALIFORNIA

                        EXECUTIVE SUMMARY


       The U.S. Department of Justice, Office of the Inspector General, Audit
Division, has completed an audit of the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the Office of Justice Programs (OJP)
to Los Angeles County, California. From fiscal years (FYs) 2002 through
2008, Los Angeles County received SWBPI funding totaling $22,189,212.

      Many drug and other criminal cases occurring along the southwest
border are initiated by a federal law enforcement agency or federal
multi-jurisdictional task forces, e.g., High Intensity Drug Trafficking Areas
(HIDTA) and Organized Crime Drug Enforcement Task Forces (OCDETF).
Many U.S. Attorneys have developed prosecution guidelines that govern the
most common violations of federal law. These prosecution guidelines are
used by law enforcement agencies to determine whether to file a case in
federal, state, or county court. As a result, many federally initiated cases
occurring near the southwest border are referred to the state or county for
prosecution.

      The SWBPI was established in FY 2002, when Congress began
appropriating funds to reimburse state, county, parish, tribal, and municipal
governments for costs associated with the prosecution of criminal cases
declined by local U.S. Attorneys’ offices. Reimbursements received from
SWBPI funding may be used by applicant jurisdictions for any purpose not
otherwise prohibited by federal law. For FY 2009, Congress appropriated
$31 million for the SWBPI.

      The objective of our audit was to determine if the SWBPI
reimbursements received by Los Angeles County were allowable, supported,
and in accordance with applicable laws, regulations, guidelines, and terms
and conditions of the SWBPI.

       We found that Los Angeles County claimed and was reimbursed for
cases that were ineligible under the SWBPI guidelines. Specifically, we
identified questioned costs totaling $2,267,475 for 532 cases that were:
(1) not federally initiated, (2) investigated or prosecuted concurrently,
(3) claimed under both the prosecution and pre-trial detention category that


                                     -i-
did not meet the requirements for pre-trial detention, (4) claimed for
detention reimbursement after disposition, (5) missing case files,
(6) submitted in the wrong quarter, and (7) submitted in the wrong
reimbursement category.1

     These issues are discussed in detail in the Findings and
Recommendations section of the report. Our audit Objectives, Scope, and
Methodology appear in Appendix I.




       1
         The Inspector General Act of 1978, as amended, contains our reporting
requirements for questioned costs. However, not all findings are dollar-related. See
Appendix II for a breakdown of our dollar-related findings and for definitions of questioned
costs and funds to better use.


                                            - ii -
                                TABLE OF CONTENTS



INTRODUCTION ............................................................................... 1
   
   Background ................................................................................. 1

                                                                                                  

FINDINGS AND RECOMMENDATIONS................................................ 5
                     
   Case Eligibility.............................................................................. 5

                                                                                                    
   Accuracy of Reimbursements ......................................................... 6
          
   Recommendations ........................................................................ 7
      

APPENDIX I           - AUDIT OBJECTIVES, SCOPE, AND 

                        METHODOLOGY.....................................................9 

APPENDIX II          - SCHEDULE OF DOLLAR-RELATED 

                        FINDINGS ...........................................................10 

APPENDIX III - LOS ANGELES COUNTY DETAILS OF

                QUESTIONED COSTS ...........................................11 

APPENDIX IV          - LOS ANGELES COUNTY RESPONSE TO THE 

                        DRAFT REPORT ...................................................33 

APPENDIX V           - OFFICE OF THE INSPECTOR GENERAL 

                        COMMENTS ON LOS ANGELES COUNTY’S 

                        RESPONSE TO THE DRAFT REPORT .....................44 

APPENDIX VI          - OFFICE OF JUSTICE PROGRAMS RESPONSE 

                        TO THE DRAFT REPORT.......................................52 

APPENDIX VII - ANALYSIS AND SUMMARY OF ACTIONS 

                NECESSARY TO CLOSE REPORT...........................55 

           AUDIT OF OFFICE OF JUSTICE PROGRAMS
             SOUTHWEST BORDER PROSECUTION
             INITIATIVE FUNDING RECEIVED BY
             LOS ANGELES COUNTY, CALIFORNIA

                            INTRODUCTION


       The Office of the Inspector General (OIG), Audit Division, has
completed an audit and issued a report on the Southwest Border Prosecution
Initiative (SWBPI) funding awarded by the U.S. Department of Justice, Office
of Justice Programs (OJP) to Los Angeles County, California. The objective
of the audit was to determine whether the SWBPI reimbursements received
by Los Angeles County were allowable, supported, and in accordance with
applicable laws, regulations, and terms and conditions of the SWBPI
guidelines.

Background

       Prior to 1994, most southwest border counties in the states of Arizona,
California, New Mexico, and Texas did not prosecute drug cases resulting
from the illegal importation of controlled substances at U.S. borders.
Typically, these cases were prosecuted exclusively by U.S. Attorneys in
federal courts. However, in late 1994, U.S. Attorneys, and state and local
prosecutors established partnerships through which the state and local
governments began prosecuting federally referred criminal cases. These
partnerships allowed the U.S. Attorneys to focus on addressing major drug
trafficking organizations and prosecuting deported criminal aliens who
returned to the U.S. illegally. As state and local governments began to
prosecute a growing number of federally referred criminal cases, the
partnerships led to an increased financial and resource burden. Congress
recognized this problem and began appropriating funds under the SWBPI in
fiscal year (FY) 2002 to support state and local prosecutions along the
southwest border.

      For FY 2009, Congress appropriated $31 million in funding for the
SWBPI, Pub. L. No. 111-8 (2009), to reimburse state, county, parish, tribal,
or municipal governments for costs associated with the prosecution of
criminal cases declined by local U.S. Attorneys’ offices. Reimbursements
received from the SWBPI funding may be used by applicant jurisdictions for
any purpose not otherwise prohibited by federal law; however, the direct
support and enhancement of jurisdictions’ prosecutorial and detention
services are encouraged.
      For cases disposed of between FY 2002 and the second quarter of FY
2008, each eligible case submitted for prosecution or pre-trial detention
services only received the following maximum reimbursement, based upon
the length of disposition and the availability of funds:

      $1,250 for each case of 1 to 15 days,

      $2,500 for each case of 16 to 30 days,

      $3,750 for each case of 31 to 90 days, and

      $5,000 for each case over 90 days.

      For cases disposed of between FY 2002 and the second quarter of FY
2008, each eligible case submitted for both prosecution and pre-trial
detention services submitted for reimbursement, received the following
maximum reimbursement based upon the length of disposition and the
availability of funds:

      $2,500 for each case of 1 to 15 days,

      $5,000 for each case of 16 to 30 days,

      $7,500 for each case of 31 to 90 days, and

      $10,000 for each case over 90 days.

      For cases disposed between FY 2002 and the second quarter of FY
2008, the disposition period of a case with both prosecution and pre-trial
detention services was calculated using the prosecution disposition period.
For cases disposed from FYs 2002 through 2006, to meet the pre-trial
detention services requirement, the defendant must be incarcerated
overnight, i.e., from one calendar day to the next. For cases disposed after
FY 2006, to meet the pre-trial detention services requirement, the defendant
must be detained for at least 24 hours.

       For cases disposed of after the second quarter of FY 2008, jurisdictions
may only receive reimbursements for the actual number of prosecutor hours
charged to the case and the number of days the defendant was detained
prior to the disposition of the case. Prosecutors’ salaries charged to the case
are based on the average hourly rate for the county’s prosecutors and
cannot include fringe benefits. Pre-trial detention charged to the case is
based on the federal detention per diem rate for the jurisdiction.


                                     - 2 -

      Pursuant to the SWBPI guidelines, when reimbursement requests
exceed available funding, applicants receive funds on a uniform, pro-rata
basis. The following table shows the pro-rata reimbursement percentages
for Los Angeles County. There were no SWBPI funds available for the fourth
quarter of FY 2004.

          PRO-RATA REIMBURSEMENT BASIS TO LOS ANGELES COUNTY
                                                             PERCENTAGE
   REPORTING PERIOD         START DATE            END DATE
                                                             REIMBURSED
   FY02, All Quarters        10/01/01             9/30/02         100%
   FY03, 1st and 2nd
                             10/01/02             12/31/02        100%
   Quarters
   FY03, 3rd Quarter         04/01/03             06/30/03      37.81%
   FY03, 4th Quarter         07/01/03             09/30/03      37.81%
   FY04, 1st Quarter         10/01/03             12/31/03        100%
   FY04, 2nd Quarter         01/01/04             03/31/04            -
   FY04, 3rd Quarter         04/01/04             06/30/04            -
   FY05, 1st Quarter         10/01/04             12/31/04      49.29%
   FY05, 2nd Quarter         01/01/05             03/31/05      44.08%
   FY05, 3rd Quarter         04/01/05             06/30/05      47.40%
   FY05, 4th Quarter         07/01/05             09/30/05      50.16%
   FY06, 1st Quarter         10/01/05             12/31/05      53.18%
   FY06, 2nd Quarter         01/01/06             03/31/06      47.61%
   FY06, 3rd Quarter         04/01/06             06/30/06      43.09%
   FY06, 4th Quarter         07/01/06             09/30/06      44.05%
   FY07, 1st Quarter         10/01/06             12/31/06      52.34%
   FY07, 2nd Quarter         01/01/07             03/31/07      52.45%
   FY07, 3rd Quarter         04/01/07             06/30/07      49.03%
   FY07, 4th Quarter         07/01/07             09/30/07      57.26%
   FY08, 1st Quarter         10/01/07             12/31/07      86.97%
   FY08, 2nd Quarter         01/01/08             03/31/08      71.63%
   FY08, 3rd Quarter         04/01/08             06/30/08     111.05%
   FY08, 4th Quarter         07/01/08             09/30/08     109.15%
  Source: Office of Justice Programs

     As shown in the following table, Los Angeles County received
reimbursements from SWBPI funds totaling $22,189,212 from FYs 2002
through 2008. Los Angeles County did not request reimbursements for the
second and third quarters of FY 2004.




                                         - 3 -

                     REIMBURSEMENTS TO LOS ANGELES COUNTY1
     REPORTING             START                         AMOUNT               AMOUNT
                                        END DATE
      PERIOD               DATE                         REQUESTED           REIMBURSED
  FY02, all
                         10/01/01       09/30/02        $3,446,250           $3,446,250
  Quarters
  FY03, 1st & 2nd
                         10/01/02       03/31/03         1,993,750            1,993,750
  Quarters
  FY03, 3rd Quarter      04/01/03       06/30/03           951,250             359,668
  FY03, 4th Quarter      07/01/03       09/30/03         1,140,000             431,034
  FY04, 1st Quarter      10/01/03       12/31/03           932,500             932,500
  FY04, 2nd Quarter      01/01/04       03/31/04                 0                   0
  FY04, 3rd Quarter      04/01/04       06/30/04                 0                   0
  FY05, 1st Quarter      10/01/04       12/31/04           976,250             481,165
  FY05, 2nd Quarter      01/01/05       03/31/05         1,010,000             445,214
  FY05, 3rd Quarter      04/01/05       06/30/05         1,196,250             567,039
  FY05, 4th Quarter      07/01/05       09/30/05         1,048,750             526,019
  FY06, 1st Quarter      10/01/05       12/31/05           918,750             488,604
  FY06, 2nd Quarter      01/01/06       03/31/06         1,177,500             560,657
  FY06, 3rd Quarter      04/01/06       06/30/06           881,250             379,688
  FY06, 4th Quarter      07/01/06       09/30/06         1,092,500             481,221
  FY07, 1st Quarter      10/01/06       12/31/06         1,322,500             692,134
  FY07, 2nd Quarter      01/01/07       03/31/07         1,665,000             873,258
  FY07, 3rd Quarter      04/01/07       06/30/07         1,288,750             631,920
  FY07, 4th Quarter      07/01/07       09/30/07           911,250             521,821
  FY08, 1st Quarter      10/01/07       12/31/07         1,203,750           1,046,915
  FY08, 2nd Quarter      01/01/08       03/31/08         1,298,750             930,240
  FY08, 3rd Quarter      04/01/08       06/30/08         2,117,019           2,350,923
  FY08, 4th Quarter      07/01/06       09/30/08         3,709,816           4,049,192
  TOTAL                                                                   $22,189,212
 Source: Office of Justice Programs




       1
         The difference in the total amount is due to rounding, in that the sum of individual
numbers prior to rounding reported may differ from the sum of the individual numbers
rounded.


                                             - 4 -

                   FINDINGS AND RECOMMENDATIONS


      We found that Los Angeles County claimed and was reimbursed
      for cases that were ineligible under the SWBPI guidelines.
      Specifically, we found cases that were: (1) not federally
      initiated, (2) investigated or prosecuted concurrently,
      (3) claimed under the both prosecution and pre-trial detention
      category that did not meet the requirements for pre-trial
      detention, (4) claimed for detention reimbursement after
      disposition, (5) missing case files, (6) submitted in the wrong
      quarter, and (7) submitted in the wrong reimbursement
      category. As a result, we identified questioned costs totaling
      $2,267,475.


Case Eligibility

       Pursuant to the SWBPI guidelines, an eligible case is any federally
initiated criminal case that the U.S. Attorney declined to prosecute and
referred to the state or local government for prosecution, which was
prosecuted by the state or local government and disposed of during an
eligible reporting period. The SWBPI guidelines define federally initiated as a
case resulting from a criminal investigation or an arrest involving federal law
enforcement authorities for a potential violation of federal criminal law. This
may include investigations resulting from multi-jurisdictional task forces,
e.g., High Intensity Drug Trafficking Areas (HIDTA) and Organized Crime
Drug Enforcement Task Forces (OCDETF). The SWBPI guidelines further
state that, “referred cases are eligible regardless of whether the case was
formally declined and referred by a U.S. Attorney, or through a blanket
federal declination-referral policy, an accepted federal law enforcement
practice, or by federal prosecutorial discretion.” Federally referred cases
that are declined and not prosecuted by the state or local government are
ineligible for reimbursement.

     We analyzed the 3,396 cases submitted for reimbursement by
Los Angeles County to determine whether the cases were eligible for
reimbursement under the requirements of the SWBPI guidelines.

      Based on our review, we found that Los Angeles County received
SWBPI funds totaling $2,267,475 for 532 cases that were not eligible for
reimbursement pursuant to the SWBPI guidelines. A detailed listing of the
cases claimed by Los Angeles County that were not eligible for



                                     - 5 -

reimbursement is provided in Appendix III. Specifically, we found that
Los Angeles County:2

       	 Received unallowable reimbursements totaling $1,256,523 for 272
          cases that were not federally initiated, including 115 cases totaling
          $518,666 related to a Project Safe Neighborhood grant program,
          and 114 extradition cases totaling $351,964, which are specifically
          unallowable pursuant to the SWBPI guidelines.

       	 Received excess reimbursements totaling $397,804 for 42 cases
          that were investigated or prosecuted during concurrent periods of
          time with cases involving the same defendant that were also
          submitted for reimbursement.

       	 Received excess reimbursements totaling $303,280 for 106 cases
          submitted under both the prosecution and pre-trial detention
          category that did not meet the requirements for pre-trial detention
          reimbursement.

       	 Received unallowable reimbursements totaling $256,963 for 97
          cases that included incarceration costs after the case was disposed.

       	 Received unsupported reimbursements totaling $21,340 for four
          cases for which the supporting case file could not be located.

       	 Received unallowable reimbursements totaling $19,066 for seven
          cases that were submitted in the wrong quarter.

       	 Received excess reimbursements totaling $12,500 for four cases
          that were erroneously submitted in the wrong reimbursement
          category.

Accuracy of Reimbursements

      Los Angeles County requests reimbursements from SWBPI funds
through an on-line application available on the Bureau of Justice Assistance
website. Pursuant to the SWBPI guidelines, eligible cases are reimbursed
using a uniform payment per case schedule based on the length of
disposition, which is calculated from the date of the suspect’s arrest through



       2
         The number of unallowable cases detailed throughout this report includes cases that
have no questioned costs because the cases were questioned previously, based on other
SWBPI reimbursement criteria.


                                           - 6 -

case resolution. Resolution of the case is defined as dismissal, conviction, or
plea.

       We reviewed the reimbursement requests submitted by Los Angeles
County for FY 2002 through FY 2007 to determine if the number of cases
claimed for each disposition category was supported by the detailed case
listings obtained during fieldwork.3 Based on our review, we determined the
reimbursement requests were supported by the master case listing.

Recommendations

       We recommend that OJP:

1.	    Remedy the $1,256,523 in questioned costs received by Los Angeles
       County for 272 cases that were not federally initiated.

2.	    Remedy the $397,804 in questioned costs received by
       Los Angeles County for 42 cases that were investigated or prosecuted
       during concurrent periods of time with cases involving the same
       defendant that were also submitted for reimbursement.

3.	    Remedy the $303,280 in questioned costs received by
       Los Angeles County for 106 cases that were erroneously claimed as
       both prosecution and pre-trial detention that did not meet the
       requirements for pre-trial detention reimbursement.

4.	    Remedy the $256,963 in questioned costs received by
       Los Angeles County for 97 cases that included incarceration costs after
       the case was disposed.

5.	    Remedy the $21,340 in unsupported questioned costs received by Los
       Angeles County for four cases for which the supporting case file could
       not be located.

6.	    Remedy the $19,066 in questioned costs received by
       Los Angeles County for seven cases that were submitted in the wrong
       quarter.



       3
          We did not reconcile cases submitted to OJP after FY 2007 because starting in the
first quarter of FY 2008, SWBPI recipients were required to provide OJP a detailed listing of
cases for which they were requesting reimbursement. Prior to the third quarter of FY 2008,
SWBPI recipients were only required to provide OJP the number of cases for which they
were requesting reimbursement for each disposition category.


                                            - 7 -

7.	   Remedy the $12,500 in questioned costs received by
      Los Angeles County for four cases that were erroneously submitted in
      the wrong reimbursement category.




                                   - 8 -

                                                               APPENDIX I 



           AUDIT OBJECTIVES, SCOPE, AND METHODOLOGY


      The objective of the audit was to determine whether reimbursements
claimed for costs under the SWBPI are allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the SWBPI guidelines.

      We conducted this audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. Our
audit concentrated on, but was not limited to, the inception of the
reimbursements through September 30, 2008.

      We tested compliance with what we consider to be the important
conditions of the reimbursements under the SWBPI. Unless otherwise stated
in our report, the criteria we audit against are contained in the SWBPI
guidelines. We tested Los Angeles County SWBPI activities in case eligibility
and compliance with regulations.

      In addition, our testing was conducted by judgmentally selecting a
sample of cases submitted for reimbursement. Judgmental sampling design
was applied to obtain broad exposure to numerous facets of the
reimbursements reviewed. This non-statistical sample design does not allow
projection of the test results to all reimbursements received.

      We did not test internal controls for Los Angeles County as a whole.
The Single Audit Report for Los Angeles County was prepared under the
provisions of Office of Management and Budget Circular A-133 for the fiscal
year ended June 30, 2009. We reviewed the independent auditor's
assessment to identify internal control weaknesses and significant non-
compliance issues related to Los Angeles County or federal programs. The
auditor’s assessment disclosed no material control weaknesses or significant
non-compliance issues related to the SWBPI. In addition, we performed
testing of source documents to assess the accuracy of reimbursement
requests; however, we did not test the reliability of the financial
management system as a whole.




                                    - 9 -

                                                                           APPENDIX II 



                  SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                              AMOUNT             PAGE

Unallowable cases that were not federally
  initiated.                                                 $1,256,523             6

Unallowable cases that were prosecuted
                                                                397,804             6
  concurrently.


Excess reimbursements for cases that were
  erroneously claimed as both prosecution                       303,280             6
  and pre-trial detention that did not meet the
  pre-trial detention requirement.

Unallowable cases for which incarceration
                                                                256,963             6
  costs were claimed after the case was
  disposed.

Unsupported reimbursements for cases for
                                                                  21,340            6
  which the supporting case file could not be
  located.

Unallowable cases that were submitted in the
                                                                  19,066            6
  wrong quarter.


Excess reimbursements for cases that were                         12,500            6
  submitted under the wrong reimbursement
  category.

Total Questioned Costs: 1                                  $2,267,475

TOTAL DOLLAR-RELATED FINDINGS                              $2,267,475




        1
            Questioned Costs are expenditures that do not comply with legal, regulatory or
  contractual requirements, or are not supported by adequate documentation at the time of
  the audit, or are unnecessary or unreasonable. Questioned costs may be remedied by
  offset, waiver, recovery of funds, or the provision of supporting documentation.


                                           - 10 -
                                                              APPENDIX III


                      LOS ANGELES COUNTY
                  DETAILS OF QUESTIONED COSTS


              CASES WHICH WERE NOT FEDERALLY INITIATED
CASE NO.       INITIATING      REIMBURSEMENT   PROSECUTION        AMOUNT
                 AGENCY           CATEGORY     ONLY OR BOTH      QUESTIONED
 Multiple    PSN TASK FORCE       Varies          Multiple           518,666
BA231343       BNE/CALMS         91+ Days          Both               10,000
BA225920       BNE/CALMS         91+ Days          Both               10,000
BA225920       BNE/CALMS         91+ Days        Pros. Only            5,000
BA237941       BNE/CALMS         0-15 Days         Both                2,500
BA237941       BNE/CALMS         16-30 Days      Pros. Only            2,500
BA237941       BNE/CALMS         16-30 Days      Pros. Only            2,500
BA173260       BNE/CATIC         91+ Days          Both               10,000
BA237983        BNE/INCA         91+ Days          Both               10,000
BA237983        BNE/INCA         91+ Days          Both               10,000
BA221933      BNE/WEST NET       91+ Days          Both               10,000
BA220734        CALM NET         91+ Days        Pros. Only            5,000
7DY00975     ENVIRONMENTAL       91+ Days          Both                4,903
                 CRIME
7DY00975     ENVIRONMENTAL       91+ Days        Pros. Only            2,452
                 CRIME
SA056192        FBI - L.A.       91+ Days        Pros. Only            2,370
BA224608     INLAND REGIONAL     91+ Days          Both               10,000
                 NARCOTIC
            ENFORCEMENT TEAM
BA224608     INLAND REGIONAL     91+ Days          Both               10,000
                 NARCOTIC
            ENFORCEMENT TEAM
BA224608     INLAND REGIONAL     91+ Days          Both               10,000
                 NARCOTIC
            ENFORCEMENT TEAM
BA224608     INLAND REGIONAL     91+ Days          Both               10,000
                 NARCOTIC
            ENFORCEMENT TEAM
BA224617     INLAND REGIONAL     91+ Days          Both               10,000
                 NARCOTIC
            ENFORCEMENT TEAM
BA243264           IRNET         91+ Days          Both               10,000
BA243270         IRNET           91+ Days          Both               10,000
BA232879         IRNET           91+ Days        Pros. Only            5,000
BA254538         IRNET           16-30 Days        Both                5,000
BA254538         IRNET           16-30 Days        Both                5,000
BA255452         IRNET           16-30 Days        Both                5,000
BA248807         IRNET           31-90 Days        Both                2,836



                                 - 11 -
                                                                    APPENDIX III 


 CASE NO.        INITIATING          REIMBURSEMENT   PROSECUTION         AMOUNT
                   AGENCY               CATEGORY     ONLY OR BOTH      QUESTIONED
 BA244455           IRNET              31-90 Days      Pros. Only            1,418
 BA277276       LAPD - 77TH ST.        91+ Days          Both                7,163
                     AREA
 BA322063       LAPD - 77TH ST.        91+ Days        Pros. Only            3,582
                     AREA
 BA327647     LAPD - NEWTON ST.        91+ Days          Both                7,163
                     AREA
 BA327647     LAPD - NEWTON ST.        91+ Days          Both                7,163
                     AREA
 BA069992            LAPD              91+ Days        Pros. Only            2,617
 LA044918       U.S. MARSHAL           91+ Days        Pros. Only            2,204
 BA300947       U.S. MARSHAL           16-30 Days        Both                2,155
 BA304792      UNION PACIFIC           91+ Days          Both                5,245
              RAILROAD POLICE
BA302019-01   Drug Enforcement            N/A            Both              133,266
               Administration
BA333338-01    U.S. MARSHAL               N/A            Both                  623
BA338113-01     U.S. MARSHAL              N/A          Pros. Only            4,747
Ba343127-01   United States Secret        N/A            Both                2,396
                    Service
LA056215-01     U.S. MARSHAL              N/A            Both                6,012
NA078480-01     U.S. MARSHAL              N/A            Both               19,595
SA058587-01     EL Segundo PD             N/A          Pros. Only              127
SA068760-01     U.S. MARSHAL              N/A            Both                  359
Total                                                                     $904,559




                                       - 12 -
                                                           APPENDIX III 



                            EXTRADITION CASES
CASE NO.    INITIATING     REIMBURSEMENT   PROSECUTION     AMOUNT
              AGENCY          CATEGORY     ONLY OR BOTH   QUESTIONED
BA222679   U.S. MARSHAL      16-30 Days         Both           5,000
BA235824   OTHER FEDERAL     16-30 Days         Both           5,000
                LAW
           ENFORCEMENT
               AGENCY
BA229679      FBI - L.A.     16-30 Days         Both           5,000
BA227954   U.S. MARSHAL      16-30 Days         Both           5,000
BA229945     FBI - L.A.      16-30 Days         Both           5,000
BA226486   U.S. MARSHAL      16-30 Days         Both           5,000
BA222776         U.S.        16-30 Days         Both           5,000
            IMMIGRATION
           NATURALIZATIO
              N SERVICE
BA234606   OTHER FEDERAL     16-30 Days         Both           5,000
                 LAW
           ENFORCEMENT
               AGENCY
BA234153    U.S. MARSHAL     31-90 Days         Both           7,500
BA221491     FBI - L.A.      31-90 Days         Both           7,500
BA239929   U.S. MARSHAL      0-15 Days          Both           2,500
BA243772   OTHER FEDERAL     0-15 Days          Both           2,500
                 LAW
           ENFORCEMENT
               AGENCY
BA241992    U.S. MARSHAL     0-15 Days          Both           2,500
BA237235     FBI - L.A.      16-30 Days         Both           5,000
BA242520         U.S.        16-30 Days         Both           5,000
            IMMIGRATION
           NATURALIZATIO
              N SERVICE
BA242522         U.S.        16-30 Days         Both           5,000
            IMMIGRATION
           NATURALIZATIO
              N SERVICE
BA242524    U.S. MARSHAL     16-30 Days         Both           5,000
BA240580   U.S. MARSHAL      16-30 Days         Both           5,000
BA241993     FBI - L.A.      16-30 Days         Both           5,000
BA242789   U.S. MARSHAL      16-30 Days         Both           5,000
BA242271   U.S. MARSHAL      16-30 Days         Both           5,000
BA238541   U.S. MARSHAL      31-90 Days         Both           7,500
BA236482   OTHER FEDERAL     31-90 Days         Both           7,500
               LAW
           ENFORCEMENT
              AGENCY



                                  - 13 -
                                                           APPENDIX III 


CASE NO.    INITIATING     REIMBURSEMENT   PROSECUTION     AMOUNT
              AGENCY          CATEGORY     ONLY OR BOTH   QUESTIONED
BA235511   U.S. MARSHAL      31-90 Days        Both            7,500
BA247973   OTHER FEDERAL     16-30 Days        Both            1,891
                 LAW
            ENFORCEMENT
               AGENCY
BA244590     BUREAU OF       16-30 Days        Both            1,891
           IMMIGRATION &
              CUSTOMS
BA244767    U.S. MARSHAL     31-90 Days        Both            2,836
BA245942     BUREAU OF       31-90 Days        Both            2,836
           IMMIGRATION &
              CUSTOMS
BA250244     BUREAU OF       0-15 Days         Both              945
           IMMIGRATION &
              CUSTOMS
BA253003    U.S. MARSHAL     16-30 Days        Both            1,891
BA255186   U.S. MARSHAL      16-30 Days        Both            5,000
BA254674   OTHER FEDERAL     16-30 Days        Both            5,000
                 LAW
           ENFORCEMENT
               AGENCY
BA255892    U.S. MARSHAL     31-90 Days        Both            7,500
BA272055   OTHER FEDERAL     0-15 Days         Both            1,232
               LAW
           ENFORCEMENT
              AGENCY
BA273241   OTHER FEDERAL     16-30 Days        Both            2,465
               LAW
           ENFORCEMENT
              AGENCY
BA272336   OTHER FEDERAL     16-30 Days        Both            2,465
               LAW
           ENFORCEMENT
              AGENCY
BA274307   OTHER FEDERAL     16-30 Days        Both            2,465
               LAW
           ENFORCEMENT
              AGENCY
BA277099   OTHER FEDERAL     16-30 Days        Both            2,204
               LAW
           ENFORCEMENT
              AGENCY
BA284534   OTHER FEDERAL     0-15 Days         Both            1,185
               LAW
           ENFORCEMENT
              AGENCY




                                  - 14 -
                                                            APPENDIX III 


CASE NO.    INITIATING      REIMBURSEMENT   PROSECUTION     AMOUNT
              AGENCY           CATEGORY     ONLY OR BOTH   QUESTIONED
BA283154   OTHER FEDERAL      0-15 Days         Both            1,185
                 LAW
           ENFORCEMENT
               AGENCY
BA281945    U.S. MARSHAL      16-30 Days        Both            2,370
BA283915   OTHER FEDERAL      16-30 Days        Both            2,370
                 LAW
           ENFORCEMENT
               AGENCY
BA280697   OTHER FEDERAL      16-30 Days        Both            2,370
                 LAW
           ENFORCEMENT
               AGENCY
BA281549    U.S. MARSHAL      16-30 Days        Both            2,370
BA282491   OTHER FEDERAL      16-30 Days        Both            2,370
                 LAW
           ENFORCEMENT
               AGENCY
BA279624   OTHER FEDERAL      31-90 Days        Both            3,555
                 LAW
           ENFORCEMENT
               AGENCY
BA281268   OTHER FEDERAL      31-90 Days        Both            3,555
                 LAW
           ENFORCEMENT
               AGENCY
BA285238    U.S. MARSHAL      16-30 Days        Both            2,508
BA294711   OTHER FEDERAL      0-15 Days         Both            1,330
                 LAW
           ENFORCEMENT
               AGENCY
BA292150    U.S. MARSHAL      16-30 Days        Both            2,659
BA292859   U.S. MARSHAL       16-30 Days        Both            2,659
BA290356     U.S. DRUG        16-30 Days        Both            2,659
           ENFORCEMENT
            ADMIN. - L.A.
                DIV
BA293165   U.S. MARSHAL       16-30 Days        Both            2,659
BA299810   OTHER FEDERAL      0-15 Days         Both            1,190
                 LAW
           ENFORCEMENT
               AGENCY
BA298695   OTHER FEDERAL      16-30 Days        Both            2,381
                 LAW
           ENFORCEMENT
               AGENCY
BA297317    U.S. MARSHAL      16-30 Days        Both            2,381
BA298995   U.S. MARSHAL       16-30 Days        Both            2,381



                                   - 15 -
                                                           APPENDIX III 


CASE NO.    INITIATING     REIMBURSEMENT   PROSECUTION     AMOUNT
              AGENCY          CATEGORY     ONLY OR BOTH   QUESTIONED
BA298599   U.S. MARSHAL      16-30 Days        Both            2,381
BA295453   OTHER FEDERAL     16-30 Days        Both            2,381
                 LAW
           ENFORCEMENT
               AGENCY
BA295463    U.S. MARSHAL     16-30 Days        Both            2,381
BA295776   OTHER FEDERAL     16-30 Days        Both            2,381
                 LAW
           ENFORCEMENT
               AGENCY
BA296969    U.S. MARSHAL     16-30 Days        Both            2,381
BA297256   U.S. MARSHAL      31-90 Days        Both            3,571
BA302826   U.S. MARSHAL      0-15 Days         Both            1,077
BA304073   U.S. MARSHAL      16-30 Days        Both            2,155
BA300020   OTHER FEDERAL     16-30 Days        Both            2,155
                 LAW
           ENFORCEMENT
               AGENCY
BA302907   OTHER FEDERAL     16-30 Days        Both            2,155
                 LAW
           ENFORCEMENT
               AGENCY
BA307727    U.S. MARSHAL     16-30 Days        Both            2,203
BA308811   U.S. MARSHAL      16-30 Days        Both            2,203
BA308529   OTHER FEDERAL     16-30 Days        Both            2,203
                 LAW
           ENFORCEMENT
               AGENCY
BA307283    U.S. MARSHAL     16-30 Days        Both            2,203
BA304986   U.S. MARSHAL      16-30 Days        Both            2,203
BA313699   OTHER FEDERAL     0-15 Days         Both            1,309
                 LAW
           ENFORCEMENT
               AGENCY
BA312283   OTHER FEDERAL     16-30 Days        Both            2,617
                 LAW
           ENFORCEMENT
               AGENCY
BA310976    U.S. MARSHAL     31-90 Days        Both            3,926
BA312925   U.S. MARSHAL      31-90 Days        Both            3,926
BA308239   U.S. MARSHAL      31-90 Days        Both            3,926
BA314635   U.S. MARSHAL      16-30 Days        Both            2,623
BA315346   U.S. MARSHAL      16-30 Days        Both            2,623
BA315871   U.S. MARSHAL      31-90 Days        Both            3,934
BA321724   U.S. MARSHAL      16-30 Days        Both            2,452




                                  - 16 -
                                                            APPENDIX III 


CASE NO.     INITIATING     REIMBURSEMENT   PROSECUTION     AMOUNT
               AGENCY          CATEGORY     ONLY OR BOTH   QUESTIONED
BA319008    U.S. MARSHAL      16-30 Days        Both            2,452
BA323235    U.S. MARSHAL      16-30 Days        Both            2,452
BA319013    U.S. MARSHAL      16-30 Days        Both            2,452
BA319556    U.S. MARSHAL      16-30 Days        Both            2,452
BA326688    OTHER FEDERAL     16-30 Days      Pros. Only        1,432
                  LAW
            ENFORCEMENT
                AGENCY
BA328847    OTHER FEDERAL     16-30 Days        Both            2,863
                  LAW
            ENFORCEMENT
                AGENCY
BA327363     U.S. MARSHAL     16-30 Days        Both            2,863
BA325203    U.S. MARSHAL      16-30 Days        Both            2,863
BA323644    U.S. MARSHAL      31-90 Days        Both            4,295
BA333011    OTHER FEDERAL     0-15 Days         Both            2,174
                  LAW
            ENFORCEMENT
                AGENCY
BA332887    OTHER FEDERAL     16-30 Days        Both            4,349
                  LAW
            ENFORCEMENT
                AGENCY
BA331406     U.S. MARSHAL     16-30 Days        Both            4,349
BA333292    U.S. MARSHAL      16-30 Days        Both            4,349
BA332366    U.S. MARSHAL      16-30 Days        Both            4,349
BA331715    U.S. MARSHAL      16-30 Days        Both            4,349
BA336799    U.S. MARSHAL      16-30 Days        Both            3,582
BA336284    U.S. MARSHAL      16-30 Days        Both            3,582
BA336222    U.S. MARSHAL      31-90 Days        Both            5,372
BA340625-   U.S. MARSHAL         N/A            Both              359
   01
BA339475-   U.S. MARSHAL         N/A            Both            1,756
   01
BA340626-   U.S. MARSHAL         N/A            Both            1,407
   01
BA341260-   U.S. MARSHAL         N/A            Both            1,756
   01
BA337742-   U.S. MARSHAL         N/A            Both            1,291
   01
BA340989-   U.S. MARSHAL         N/A            Both            1,756
   01
BA339575-   U.S. MARSHAL         N/A            Both            2,222
   01




                                   - 17 -
                                                              APPENDIX III 


CASE NO.     INITIATING       REIMBURSEMENT   PROSECUTION     AMOUNT
               AGENCY            CATEGORY     ONLY OR BOTH   QUESTIONED
BA338094-   Immigration and        N/A          Pros. Only          127
   01           Customs
              Enforcement
BA341403-    U.S. MARSHAL          N/A            Both            1,291
   01
BA344530-   U.S. MARSHAL           N/A            Both              359
   01
BA342246-   U.S. MARSHAL           N/A            Both              929
   01
BA345679-   Immigration and        N/A            Both            1,157
   01           Customs
              Enforcement
BA344696-    U.S. MARSHAL          N/A            Both            1,728
    01
BA344695-   U.S. MARSHAL           N/A            Both            1,842
    01
BA342437-   U.S. MARSHAL           N/A            Both            2,299
    01
Total                                                          $351,964




                                    - 18 -
                                                                         APPENDIX III 



                  CASES THAT WERE CONCURRENTLY PROSECUTED1
CASE NO.       INITIATING AGENCY        PROSECUTION         QUARTER        AMOUNT
                                        ONLY OR BOTH       SUBMITTED      QUESTIONED
BA273022          U.S. BUREAU OF              Both            FY05-3             $4,740
               ALCOHOL/TOBACCO/
                     FIREARMS
BA313236             U.S. DRUG                Both            FY07-2              5,245
              ENFORCEMENT ADMIN.
                 - L.A. DIV/HIDTA
BA315337       L.A. IMPACT GROUP 4            Both            FY08-1              6,523
YA061904      U.S. POSTAL SERVICE             Both            FY05-4              3,762
YA061051     U.S. SECRET SERVICE -            Both            FY05-4              3,762
                  FIELD OFFICE
BA273012         U.S. BUREAU OF               Both            FY05-3              4,740
              ALCOHOL/TOBACCO/
                    FIREARMS
4WL13829            VETERANS               Pros. Only         FY05-2              2,204
                ADMINISTRATION
SA044961            VETERANS                  Both          FY03-1&2             10,000
                ADMINISTRATION
BA313246            U.S. DRUG                 Both            FY07-2              3,934
             ENFORCEMENT ADMIN.
                - L.A. DIV/HIDTA
BA207149            U.S. DRUG                 Both           FY02-All            10,000
             ENFORCEMENT ADMIN.
                    - L.A. DIV
BA232211            HIDTA-44                  Both          FY03-1&2             10,000
BA273015         U.S. BUREAU OF               Both            FY05-4              5,016
             ALCOHOL/TOBACCO/FIR
                      EARMS
BA313258            U.S. DRUG                 Both            FY07-2              3,934
             ENFORCEMENT ADMIN.
                - L.A. DIV/HIDTA
3WL17979            VETERANS                  Both            FY03-4              3,781
                ADMINISTRATION
BA223323           L.A. IMPACT                Both          FY03-1&2             10,000
                     GROUP 3
BA225443           L.A. IMPACT                Both           FY02-All            10,000
                     GROUP 3
BA233656           L.A. IMPACT                Both          FY03-1&2             10,000
                     GROUP 3
BA208964            U.S. DRUG              Pros. Only        FY02-All             1,250
             ENFORCEMENT ADMIN.
                    - L.A. DIV
BA317744            U.S. DRUG                 Both            FY08-2              7,163
             ENFORCEMENT ADMIN.
                    - L.A. DIV

       1
         The number of unallowable cases detailed throughout this report includes cases that
have $0 in questioned costs because the cases were questioned previously, based on other
SWBPI reimbursement criteria.


                                          - 19 -
                                                            APPENDIX III 


CASE NO.    INITIATING AGENCY    PROSECUTION     QUARTER     AMOUNT
                                 ONLY OR BOTH   SUBMITTED   QUESTIONED
BA232176         HIDTA-44          Pros. Only   FY03-1&2          5,000
BA238959         L.A. IMPACT         Both        FY07-2           5,245
                   GROUP 4
BA315337         L.A. IMPACT         Both        FY07-2           2,623
                   GROUP 4
BA322400          U.S. DRUG          Both        FY08-2           7,163
            ENFORCEMENT ADMIN.
                  - L.A. DIV
BA231552          VETERANS           Both        FY02-All        10,000
              ADMINISTRATION
BA313258          U.S. DRUG          Both        FY07-2           5,245
            ENFORCEMENT ADMIN.
              - L.A. DIV/HIDTA
BA313236          U.S. DRUG          Both        FY07-2           5,245
            ENFORCEMENT ADMIN.
              - L.A. DIV/HIDTA
BA313246          U.S. DRUG          Both        FY07-2           5,245
            ENFORCEMENT ADMIN.
              - L.A. DIV/HIDTA
BA312918          U.S. DRUG          Both        FY07-2           5,245
            ENFORCEMENT ADMIN.
              - L.A. DIV/HIDTA
BA300161      PSN TASK FORCE         Both        FY07-1               0
NA066409       U.S. HOMELAND         Both        FY06-1           5,318
                  SECURITY
BA242581         L.A. IMPACT       Pros. Only    FY03-4           1,891
                   GROUP 3
KA074743         L.A. IMPACT         Both        FY07-2           5,245
                   GROUP 3
BA301027          U.S. DRUG          Both        FY07-2           5,245
            ENFORCEMENT ADMIN.
                  - L.A. DIV
BA310117          U.S. DRUG          Both        FY07-2           5,245
            ENFORCEMENT ADMIN.
                  - L.A. DIV
7WA11672          VETERANS           Both        FY07-4           5,726
              ADMINISTRATION
BA288872          U.S. DRUG          Both        FY08-2           7,163
            ENFORCEMENT ADMIN.
                  - L.A. DIV
PA058297         L.A. IMPACT         Both        FY07-4           5,726
                   GROUP 3
LA044918        U.S. MARSHAL         Both        FY08-2           7,163
6WA13624         VETERANS            Both        FY08-2           7,163
              ADMINISTRATION
7WA12141       U.S. MARSHAL          Both        FY08-3          16,831
   -01
KA074743-      U.S. MARSHAL          Both        FY08-4         147,176
    02



                                  - 20 -
                                                              APPENDIX III 


CASE NO.    INITIATING AGENCY      PROSECUTION     QUARTER     AMOUNT
                                   ONLY OR BOTH   SUBMITTED   QUESTIONED
BA320342-   United States Secret       Both        FY08-3         10,849
    02            Service
Total                                                           $397,804




                                    - 21 -
                                                             APPENDIX III 



                   CASES WITHOUT OVERNIGHT STAY
CASE NO.   INITIATING AGENCY    BOOKING/     REIMBURSEMENT    AMOUNT
                                 RELEASE        CATEGORY     QUESTIONED
                                  DATE
BA219677        U.S. DRUG        5/6/2002      16-30 Days         $2,500
              ENFORCEMENT
            ADMIN. - L.A. DIV
BA227511       U.S. POSTAL         N/A         31-90 Days          3,750
                 SERVICE
2WL11484        VETERANS           N/A         31-90 Days          3,750
            ADMINISTRATION
BA232218     HIGH INTENSITY        N/A         31-90 Days          3,750
           DRUG TRAFFICKING
                  AREA
MJ08956    OTHER FEDERAL LAW       N/A         31-90 Days          3,750
              ENFORCEMENT
                 AGENCY
KA050221     U.S. BUREAU OF        N/A         31-90 Days          3,750
           ALCOHOL/TOBACCO/
                FIREARMS
2WL13974        VETERANS           N/A         31-90 Days          3,750
            ADMINISTRATION
1WL16639        VETERANS           N/A         31-90 Days          3,750
            ADMINISTRATION
BA232232     HIGH INTENSITY        N/A         31-90 Days          3,750
           DRUG TRAFFICKING
                  AREA
BA222528       SOUTHWEST           N/A         31-90 Days          3,750
           BORDER INITIATIVE
               TASK FORCE
1WL17450        VETERANS           N/A         31-90 Days          3,750
            ADMINISTRATION
BA222133        U.S. DRUG       9/11/2001      91+ Days            5,000
              ENFORCEMENT
            ADMIN. - L.A. DIV
GA048121   OTHER FEDERAL LAW    12/19/2001     91+ Days            5,000
              ENFORCEMENT
                 AGENCY
GA049654        FBI - L.A.      5/15/2002      91+ Days            5,000
TA064965    U.S. IMMIGRATION    4/19/2002      91+ Days            5,000
            NATURALIZATION
                 SERVICE
MA023284   OTHER FEDERAL LAW    10/24/2001     91+ Days            5,000
              ENFORCEMENT
                  AGENCY
MA023284   OTHER FEDERAL LAW    10/24/2001     91+ Days            5,000
              ENFORCEMENT
                  AGENCY
KA050221     U.S. BUREAU OF     3/18/2002      91+ Days            5,000
           ALCOHOL/TOBACCO/
                FIREARMS



                                 - 22 -
                                                              APPENDIX III 


CASE NO.   INITIATING AGENCY     BOOKING/     REIMBURSEMENT     AMOUNT
                                  RELEASE        CATEGORY     QUESTIONED
                                   DATE
2LC01108        U.S. SECRET      3/19/2002      91+ Days            5,000
              SERVICE - FIELD
                   OFFICE
GA048700        U.S. POSTAL      1/28/2002      91+ Days            5,000
                  SERVICE
BA218746         U.S. DRUG       6/21/2001      91+ Days            5,000
               ENFORCEMENT
             ADMIN. - L.A. DIV
BA215670         U.S. DRUG       3/29/2001      91+ Days            5,000
               ENFORCEMENT
             ADMIN. - L.A. DIV
GA045291    L.A. IMPACT GROUP    2/11/2001      91+ Days            5,000
                      4
LA037110   OTHER FEDERAL LAW      1/8/2001      91+ Days            5,000
               ENFORCEMENT
                   AGENCY
BA225175         U.S. DRUG       10/23/2001     91+ Days            5,000
               ENFORCEMENT
             ADMIN. - L.A. DIV
BA223343         U.S. DRUG       10/12/2001     91+ Days            5,000
               ENFORCEMENT
             ADMIN. - L.A. DIV
NA047102          FBI - L.A.     11/20/2000     91+ Days            5,000
1EL09603      U.S. DEPT OF       8/26/2002      91+ Days            5,000
               TREASURY
SA037080        FBI - L.A.       9/16/1999      91+ Days            5,000
94M12296       U.S. DEPT OF       7/4/1994      91+ Days            5,000
                FORESTRY
KA062567        BUREAU OF         7/3/2003      16-30 Days           945
             IMMIGRATION &
                 CUSTOMS
NA056376   OTHER FEDERAL LAW     4/15/2003      91+ Days            1,891
              ENFORCEMENT
                  AGENCY
3WL11538    U.S. DEPT/DEF-LA     5/10/2003      91+ Days            1,891
             AIR FORCE BASE
                  POLICE
3WL11700    U.S. DEPT/DEF-LA     5/22/2003      91+ Days            1,891
             AIR FORCE BASE
                  POLICE
BA246528        U.S. DRUG        4/24/2003      91+ Days            1,891
              ENFORCEMENT
            ADMIN. - L.A. DIV
BA246528        U.S. DRUG        4/24/2003      91+ Days            1,891
              ENFORCEMENT
            ADMIN. - L.A. DIV




                                  - 23 -
                                                             APPENDIX III 


CASE NO.   INITIATING AGENCY    BOOKING/     REIMBURSEMENT     AMOUNT
                                 RELEASE        CATEGORY     QUESTIONED
                                  DATE
NA057926   OTHER FEDERAL LAW    10/26/2001     31-90 Days          3,750
              ENFORCEMENT
                 AGENCY
YA054980       BUREAU OF        5/14/2003      91+ Days            5,000
             IMMIGRATION &
                CUSTOMS
SA048256        VETERANS         3/5/2003      91+ Days            5,000
            ADMINISTRATION
LA039561   OTHER FEDERAL LAW     1/5/2003      91+ Days            5,000
              ENFORCEMENT
                 AGENCY
YA054675       U.S. POSTAL       1/9/2003      91+ Days            5,000
                 SERVICE
SA053772       U.S. POSTAL      8/27/2004      31-90 Days          1,848
                 SERVICE
YA059930   OTHER FEDERAL LAW    9/26/2004      31-90 Days          1,848
              ENFORCEMENT
                 AGENCY
SA052598        FBI - L.A.      5/18/2004      91+ Days            2,465
LA044875        U.S. DRUG        2/2/2004      91+ Days            2,465
              ENFORCEMENT
            ADMIN. - L.A. DIV
LA045460        U.S. DRUG        2/6/2004      91+ Days            2,465
              ENFORCEMENT
            ADMIN. - L.A. DIV
5IW00094       BUREAU OF        1/11/2005      0-15 Days            551
             IMMIGRATION &
                CUSTOMS
NA063799       U.S. POSTAL      11/30/2004     31-90 Days          1,653
                 SERVICE
BA274761    PSN TASK FORCE      11/21/2004     31-90 Days               0
BA275128   OTHER FEDERAL LAW    11/25/2004     31-90 Days          1,653
             ENFORCEMENT
                AGENCY
BA279052    PSN TASK FORCE         N/A         31-90 Days               0
VA087445   OTHER FEDERAL LAW       N/A         31-90 Days          1,653
             ENFORCEMENT
                AGENCY
VA087445   OTHER FEDERAL LAW       N/A         31-90 Days          1,653
             ENFORCEMENT
                AGENCY
BA277723    PSN TASK FORCE         N/A         31-90 Days               0
BA277323    PSN TASK FORCE         N/A         31-90 Days               0
BA272666       U.S. DRUG        10/21/2004     91+ Days            2,204
             ENFORCEMENT
            ADMIN. - L.A. DIV




                                 - 24 -
                                                             APPENDIX III 


CASE NO.   INITIATING AGENCY    BOOKING/     REIMBURSEMENT     AMOUNT
                                 RELEASE        CATEGORY     QUESTIONED
                                  DATE
BA269973        U.S. DRUG       8/19/2004      91+ Days            2,204
             ENFORCEMENT
            ADMIN. - L.A. DIV
BA272766   OTHER FEDERAL LAW    7/14/2004      91+ Days            2,204
             ENFORCEMENT
                 AGENCY
BA264400   OTHER FEDERAL LAW     5/5/2004      91+ Days            2,204
             ENFORCEMENT
                 AGENCY
VA085548       U.S. POSTAL         N/A         91+ Days            2,204
                 SERVICE
KA067554    U.S. DEPT OF HUD       N/A         91+ Days            2,204
            HOUSING/URBAN
                   DEV
4RH04267   OTHER FEDERAL LAW       N/A         91+ Days            2,204
             ENFORCEMENT
                 AGENCY
BA264400   OTHER FEDERAL LAW       N/A         91+ Days            2,204
             ENFORCEMENT
                 AGENCY
BA257089        U.S. DRUG          N/A         91+ Days            2,204
             ENFORCEMENT
            ADMIN. - L.A. DIV
BA257089        U.S. DRUG          N/A         91+ Days            2,204
             ENFORCEMENT
            ADMIN. - L.A. DIV
BA256048        U.S. DRUG          N/A         91+ Days            2,204
             ENFORCEMENT
            ADMIN. - L.A. DIV
GA054062        FBI - L.A.         N/A         91+ Days            2,204
3WL10897    U.S. DEPT/DEF-LA       N/A         91+ Days            2,204
             AIR FORCE BASE
                  POLICE
5WL11980        VETERANS        4/29/2005      31-90 Days          1,778
            ADMINISTRATION
BA276628   OTHER FEDERAL LAW    12/21/2004     91+ Days            2,370
              ENFORCEMENT
                 AGENCY
BA270855       U.S. POSTAL      9/16/2004      91+ Days            2,370
                 SERVICE
SA056915        VETERANS        6/26/2005      0-15 Days            627
            ADMINISTRATION

BA285064        U.S. DRUG       6/15/2005      16-30 Days          1,254
             ENFORCEMENT
            ADMIN. - L.A. DIV
BA285062   L.A. IMPACT GROUP       N/A         31-90 Days          1,881
                     4



                                 - 25 -
                                                              APPENDIX III 


CASE NO.   INITIATING AGENCY     BOOKING/     REIMBURSEMENT     AMOUNT
                                  RELEASE        CATEGORY     QUESTIONED
                                   DATE
BA274519    L.A. IMPACT GROUP       N/A         91+ Days            2,508
                      3
BA207866         U.S. DRUG        9/7/2004      91+ Days            2,508
               ENFORCEMENT
             ADMIN. - L.A. DIV
5WL13700         U.S. DRUG       9/23/2005      31-90 Days          1,994
               ENFORCEMENT
             ADMIN. - L.A. DIV
5WL12981         U.S. DRUG       8/21/2005      91+ Days            2,659
               ENFORCEMENT
             ADMIN. - L.A. DIV
FJ36244    OTHER FEDERAL LAW     3/16/2005      91+ Days            2,659
               ENFORCEMENT
                   AGENCY
GA060539        U.S. SECRET      11/24/2004     91+ Days            2,659
              SERVICE - FIELD
                   OFFICE
BA263222      U.S. HOMELAND      4/13/2004      91+ Days            2,659
                 SECURITY
SA057625        U.S. SECRET      8/27/2005      91+ Days            2,381
              SERVICE - FIELD
                   OFFICE
LA049180          FBI - L.A.      6/6/2005      91+ Days            2,381
BA264400   OTHER FEDERAL LAW      5/5/2004      91+ Days            2,381
               ENFORCEMENT
                   AGENCY
BA301097         U.S. DRUG       4/11/2006      31-90 Days          1,616
               ENFORCEMENT
             ADMIN. - L.A. DIV
GA062668    L.A. IMPACT GROUP     5/4/2005      31-90 Days          1,616
                      4
TA083593    L.A. IMPACT GROUP    2/21/2006      91+ Days            2,155
                      1
YA063717        U.S. SECRET      12/24/2005     91+ Days            2,155
              SERVICE - FIELD
                   OFFICE
GA063778        BUREAU OF        9/22/2005      91+ Days            2,155
              IMMIGRATION &
                  CUSTOMS
LA052847   OTHER FEDERAL LAW     07/11/2006     31-90 Days          1,652
               ENFORCEMENT
                   AGENCY
BA302072    L.A. IMPACT GROUP    06/26/2006     31-90 Days          1,652
                      4
6WA12145         VETERANS        11/17/2006     91+ Days            2,203
             ADMINISTRATION




                                  - 26 -
                                                                  APPENDIX III 


 CASE NO.     INITIATING AGENCY      BOOKING/     REIMBURSEMENT     AMOUNT
                                      RELEASE        CATEGORY     QUESTIONED
                                       DATE
 BA301097          U.S. DRUG         05/04/2006     91+ Days            2,203
                 ENFORCEMENT
               ADMIN. - L.A. DIV
 GA065098     OTHER FEDERAL LAW      03/17/2006     91+ Days            2,203
                 ENFORCEMENT
                    AGENCY
 BA289238       U.S. BUREAU OF       09/02/2005     91+ Days            2,203
              ALCOHOL/TOBACCO/
                   FIREARMS
 SA059198     OTHER FEDERAL LAW      10/24/2006     31-90 Days          1,967
                 ENFORCEMENT
                    AGENCY
 BA300580     OTHER FEDERAL LAW      4/17/2006      91+ Days            2,623
                 ENFORCEMENT
                    AGENCY
 BA298068          FBI - L.A.        2/16/2006      91+ Days            2,623
BA336725-01   United States Postal   8/29/2008         N/A                114
               Inspection Service
SA065891-01       United States       8/8/2008         N/A                114
                Marshals Service
SA066837-04    Bureau of Alcohol,    9/30/2008         N/A                114
               Tobacco, Firearms
                 and Explosives
6wa11241-01       United States      4/30/2008         N/A                116
                Marshals Service
 8NW00547-    United States Postal   4/17/2008         N/A                116
    01         Inspection Service
BA320338-04   United States Secret    6/4/2008         N/A                116
                     Service
BA333338-01       United States      5/21/2008         N/A                116
                Marshals Service
BA319261-08    Drug Enforcement      6/24/2008         N/A             22,233
                 Administration
Total                                                                $303,280




                                      - 27 -
                                                         APPENDIX III 



       CASES REIMBURSED FOR INCARCERATION AFTER DISPOSITION
CASE NO.   DISPOSITION   BOOKING DATE    REIMBURSEMENT    AMOUNT
              DATE                          CATEGORY     QUESTIONED


SA046094    9/11/2002     11/12/2002       0-15 Days          $1,250
SA043691   12/17/2001      2/11/2002       16-30 Days          2,500
BA219677    3/28/2002      5/6/2002        16-30 Days             0
KA056377    5/16/2002     11/15/2002       31-90 Days          3,750
2WL10652    4/3/2002       3/4/2003        91+ Days            5,000
BA184527   10/31/2001     10/31/2001       91+ Days            5,000
BA219658    3/26/2002      4/24/2002       91+ Days            5,000
VA071659    9/20/2002      9/20/2002       91+ Days            5,000
BA219677    2/14/2002      2/14/2002       91+ Days            5,000
BA219658    3/26/2002      3/26/2002       91+ Days            5,000
GA046875    6/17/2002     10/15/2002       91+ Days            5,000
1EL09603    8/26/2002      8/26/2002       91+ Days               0
BA210068   10/25/2001     10/25/2001       91+ Days            5,000
GA044515    10/7/2002      11/7/2002       0-15 Days           1,250
2WL14601    10/8/2002     10/15/2002       91+ Days            5,000
BA232337    10/7/2002      3/27/2003       91+ Days            5,000
BA230375    10/8/2002      11/8/2002       91+ Days            5,000
PA041353   11/14/2002     11/14/2002       91+ Days            5,000
BA232346    1/9/2003       1/9/2003        91+ Days            5,000
BA232214    1/9/2003       1/9/2003        91+ Days            5,000
BA234676    3/24/2003      4/1/2003        91+ Days            5,000
2WL12886   11/25/2002     12/26/2002       91+ Days            5,000
BA228853    12/3/2002      12/3/2002       91+ Days            5,000
BA240020   11/13/2002     12/10/2002       91+ Days            5,000
BA240020   11/13/2002     12/10/2002       91+ Days            5,000
BA219662    4/18/2003      4/18/2003       91+ Days            1,891
BA247921    7/31/2003      7/31/2003       31-90 Days          1,418
BA247921    7/31/2003      1/15/2004       31-90 Days          1,418
TA069375    8/18/2003      8/18/2003       91+ Days            1,891
BA234676    8/14/2003      8/14/2003       91+ Days            1,891
BA263418   12/20/2004     12/20/2004       31-90 Days             0
YA058123    3/17/2005      3/21/2005       91+ Days            2,204
YA056310    2/3/2005       2/3/2005        91+ Days            2,204
BA273015    8/23/2005      8/23/2005       91+ Days            2,508
BA280242    9/26/2005      9/26/2005       91+ Days            2,508
SA052688    7/15/2005      7/15/2005       91+ Days            2,508
VA084097    9/22/2005      9/22/2005       91+ Days            2,508



                                - 28 -
                                                         APPENDIX III 


CASE NO.   DISPOSITION   BOOKING DATE    REIMBURSEMENT    AMOUNT
              DATE                          CATEGORY     QUESTIONED


BA275590    8/3/2005       8/3/2005        91+ Days                0
BA275590    8/3/2005       8/17/2005       91+ Days                0
TA081318    11/9/2005     11/17/2005       16-30 Days         1,330
5WL13085   10/27/2005      11/7/2005       91+ Days           2,659
SA055139   12/21/2005      2/16/2006       91+ Days           2,659
BA293683    3/14/2006      3/14/2006       91+ Days           2,381
PA050919    1/5/2006       1/5/2006        91+ Days           2,381
YA061904    3/3/2006       3/3/2006        91+ Days           2,381
BA280744    1/20/2006      2/3/2006        91+ Days           2,381
SA059862    4/14/2006      5/12/2006       0-15 Days            539
KA074752    5/25/2006      5/25/2006       0-15 Days            539
SA059646    4/19/2006      6/6/2006        31-90 Days         1,616
YA063468    5/22/2006      5/22/2006       91+ Days           2,155
BA288062    5/22/2006      5/30/2006       91+ Days           2,155
BA259496    5/10/2006      5/10/2006       91+ Days           2,155
GA065942    9/21/2006     10/16/2006       91+ Days           2,203
6WA12145    9/13/2006     11/17/2006       91+ Days                0
PA051327    7/26/2006      7/26/2006       91+ Days           2,203
TA083224    8/31/2006      8/31/2006       91+ Days           2,203
LA053627    12/8/2006      12/8/2006       31-90 Days         1,963
YA065566   12/15/2006      2/1/2007        91+ Days           2,617
6WA12881    11/6/2006      11/7/2006       91+ Days           2,617
GA065026   10/17/2006     11/20/2006       91+ Days           2,617
BA293551   10/25/2006     10/25/2006       91+ Days           2,617
MA036504    1/5/2007       1/5/2007        31-90 Days         1,967
BA304792    1/3/2007       1/3/2007        91+ Days                0
KA074758    1/25/2007      1/29/2007       91+ Days           2,623
BA314398    4/24/2007      8/2/2007        31-90 Days         1,839
BA313236    5/15/2007      5/15/2007       91+ Days           2,452
SA062077    5/7/2007       5/7/2007        91+ Days           2,452
KA076167    4/20/2007      4/20/2007       91+ Days           2,452
KA074746    6/25/2007      6/25/2007       91+ Days           2,452
LA055349    8/2/2007       8/17/2007       91+ Days           2,863
BA321135    9/17/2007      9/17/2007       91+ Days           2,863
BA319623    8/16/2007      9/20/2007       91+ Days           2,863
BA308389    9/5/2007       9/5/2007        91+ Days           2,863
BA308935    9/7/2007      11/19/2007       91+ Days           2,863
BA260796    7/16/2007      7/16/2007       91+ Days           2,863



                                - 29 -
                                                           APPENDIX III 


 CASE NO.    DISPOSITION   BOOKING DATE    REIMBURSEMENT    AMOUNT
                DATE                          CATEGORY     QUESTIONED


 BA260796     7/16/2007      7/16/2007       91+ Days           2,863
 PA059872    11/30/2007     11/30/2007       31-90 Days         3,261
 LA056484    10/10/2007     12/31/2007       31-90 Days         3,261
 LA056259    12/11/2007      1/25/2008       91+ Days           4,349
 TA090181    11/19/2007     11/19/2007       91+ Days           4,349
 VA100868     11/5/2007      11/5/2007       91+ Days           4,349
 SA063852    12/11/2007     12/11/2007       91+ Days           4,349
 VA099277    11/19/2007      2/4/2008        91+ Days           4,349
 BA307996    11/26/2007     11/26/2007       91+ Days                0
 BA308919    10/22/2007     10/22/2007       91+ Days           4,349
8WA10894      3/19/2008      4/18/2008       31-90 Days         2,686
 BA323961     1/9/2008       1/9/2008        91+ Days           3,582
 SA064336     1/18/2008      1/18/2008       91+ Days           3,582
 BA318773     2/4/2008       2/4/2008        91+ Days           3,582
 BA298261     1/9/2008       1/9/2008        91+ Days           3,582
 6wa11241-    4/30/2008      4/30/2008          N/A                  0
     01
8NW00547-     4/17/2008      4/17/2008          N/A                  0
     01
 BA320338-    6/4/2008       6/4/2008           N/A                  0
     04
 BA333338-    5/21/2008      5/21/2008          N/A                  0
     01
 BA336725-    8/29/2008      8/29/2008          N/A                  0
     01
 SA065891-    8/8/2008       8/8/2008           N/A                  0
     01
 SA066837-    9/30/2008      9/30/2008          N/A                  0
     04
Total                                                        $256,963




                                  - 30 -
                                                                        APPENDIX III 



                             MISSING CASE FILES
 CASE NO.       INITIATING     PROSECUTION         REIMBURSEMENT           AMOUNT
                  AGENCY       ONLY OR BOTH           CATEGORY            QUESTIONED


 GA067886        OTHER                Both            16-30 Days                $2,623
              FEDERAL LAW
              ENFORCEMENT
                 AGENCY
 GA069922        OTHER                Both            31-90 Days                 4,295
              FEDERAL LAW
              ENFORCEMENT
                 AGENCY
 TA075817        OTHER                Both                91+ Days               5,726
              FEDERAL LAW
              ENFORCEMENT
                 AGENCY
 BA307996        OTHER                Both                91+ Days               8,697
              FEDERAL LAW
              ENFORCEMENT
                 AGENCY
Total                                                                          $21,340




                CASES REIMBURSED IN THE WRONG QUARTER
            CASE NO.      QUARTER            DISPOSITION       AMOUNT
                         SUBMITTED              DATE          QUESTIONED
            BA275455         FY05-2          12/22/2004                   $0

            NA063868         FY05-2          12/22/2004                2,204

            BA263418         FY05-2          12/20/2004                3,306

            BA250165         FY05-2          12/29/2004                4,408

            BA248527         FY05-2          12/29/2004                4,408

            BA242960         FY05-3           3/21/2005                2,370

            BA242960         FY05-3           3/21/2005                2,370

        Total                                                        $19,066




                                      - 31 -
                                                           APPENDIX III 



                          EXTRA DAYS REIMBURSED
 CASE NO.      QUARTER     REIMBURSEMENT   CASE LENGTH    AMOUNT
              SUBMITTED       CATEGORY       (DAYS)      QUESTIONED
 BA221735      FY02-All      31-90 Days        29             $2,500

 LA043736      FY04-1        31-90 Days        12              2,500

  BA233447     FY02-All       91+ Days         45              2,500

 NA054507     FY03-1&2        91+ Days         23              5,000

Total                                                       $12,500




                                  - 32 -
                                                                                 APPENDIX IV

                       STEVE COOLEY
                       LOS ANGELES COUNTY DISTRICT ATTORNEY
                       18000 CLARA SHORTRIDGE FOLTZ CRIMINAL JUSTICE CENTER
                       210 WEST TEMPLE STREET LOS ANGELES, CA 90012-3210 (213) 974-3501



August 30, 2010




David M. Shereen,
Regional Audit Manager
Denver Regional Audit Office
Office of Inspector General
United States Department of Justice
1120 Lincoln, Suite 1500
Denver, Colorado 80204

                   RESPONSE TO DRAFT AUDIT REPORT

     OFFICE OF JUSTICE PROGRAMS SOUTHWEST BORDER PROSECUTION 

   INITIATIVE FUNDING RECEIVED BY LOS ANGELES COUNTY, CALIFORNIA 


Dear Mr. Shereen:

The Los Angeles County District Attorney's Office has completed its review of the Draft Audit
Report covering the above-referenced reimbursements received by our office and has prepared
the following response to the findings contained in the Report:

INTRODUCTION

The Los Angeles County District Attorney's Office (LADA) has received funding from the
Southwest Border Prosecution Initiative (SWBPI) since its inception in Federal Fiscal Year
(FFY) 2002. The LADA audit addressed reimbursements received for FFY 2002 through FFY
2007.

Claims made by LADA were based solely upon Guidelines provided by SWBPI. Therefore,
only the SWBPI Guidelines which were in existence during these periods apply to this audit.
The first set of SWBPI Guidelines was applicable for FFY 2002 through FFY 2006 (October 1,
2001 to September 30, 2006). The second set of Guidelines was applicable from FFY 2007 to
the second quarter of FFY 2008 (October 1, 2006 to March 31, 2008).

In reviewing the findings contained in the Draft Audit Report, we have determined that audit
staff did not correctly apply the appropriate set of Guidelines that were in effect during the
corresponding claiming periods. This resulted in numerous audit exceptions based on the
application of claiming criteria that was not in effect during the specific audited claim periods.



                                              - 33 -
                                                                               APPENDIX IV 


David M. Shereen
August 30, 2010
Page 2


Since 2002, significant changes have been made to the Guidelines. A summary of these
additions and changes as they directly relate to our claims, reimbursements and the findings
contained in the Draft Audit Report follow.

Ineligible Cases

Prior to October 1, 2006, the Guidelines did not specifically set forth criminal cases that were
ineligible for reimbursement. The second set of Guidelines provided that the following types of
cases were now ineligible for reimbursement:

      Federally referred case declined and not prosecuted by state or county prosecutors
      Probation or parole violation or revocation hearings
      Extradition cases
      Cases not accepted by state or county prosecutors

Documentation

The second set of Guidelines added this additional section which reads as follows:
       Documentation supporting a federally initiated and declined/referred case must be
       retained for three years after the submission of the case for SWBPI funds.
       Documentation can include paper or electronic case files, e-mails from the U.S.
       Attorney's Office, case notes, or documentation of telephone or face-to-face meetings
       with U.S. Attorney's Office staff or federal law enforcement officials.

Case Reporting Periods

The first set of Guidelines provided the four quarters of the FFY as the Case Reporting Periods.
The second set of Guidelines added an additional requirement to this section. It reads, "Cases
are eligible for SWBPI submission only during the reporting period in which the case was
resolved."

Federally Initiated Cases

From October 1, 2002 through September 30, 2006, a Federally Initiated Case was defined as
follows:

       A federally initiated case results from a criminal investigation or an arrest involving
       federal law enforcement authorities for a potential violation of federal criminal law. This
       may include investigations resulting from multi-jurisdictional taskforces (e.g., High




                                             - 34 -
                                                                                APPENDIX IV 


David M. Shereen
August 30, 2010
Page 3


       Intensity Drug Trafficking Areas (HIDTA), Organized Crime Drug Enforcement Task
       Forces (OCDETF), etc.). Italics added.

Since FFY 2007, Federally Initiated Case has been defined as follows:

       A federally initiated case results from a criminal investigation or an arrest involving
       federal law enforcement authorities for a potential violation of federal criminal law,
       including task forces on which a federal agency or officer participates in the
       investigation or arrest process (In FFY 2008, there was an additional requirement that
       eligible jurisdictions must enter the name of the federal agency on each case submitted
       for prosecution costs). Italics added.

Pre-trial Detention Services

The first Guidelines required that an "...eligible jurisdiction must have held the case defendant
overnight for one or more days in a secure facility." The second set of Guidelines changed this
requirement to an "eligible jurisdiction must have held the case defendant in a secure facility for
24 hours or more."

RESPONSE TO FINDINGS

FINDING NO.1

RECEIVED UNALLOWABLE REIMBURSEMENTS TOTALING 51,256,523 FOR 272
CASES THAT WERE NOT FEDERALLY INITIATED, INCLUDING 115 CASES
TOTALING 5518,666 RELATED TO A PROJECT SAFE NEIGHBORHOODS GRANT
PROGRAM, AND 114 EXTRADITION CASES TOTALING 5351,964, WHICH ARE
SPECIFICALLY UNALLOWABLE PURSUANT TO THE SWBPI GUIDELINES.

RESPONSE:

As set forth in the Introduction, the first set of Guidelines defined Federally Initiated Cases two
ways. First, there were cases resulting "...from a criminal investigation or arrest involving
federal law enforcement authorities ..." The second category included "investigations resulting
from multi-jurisdictional task forces (e.g., High Intensity Drug Trafficking Areas (HIDTA),
Organized Crime Drug Enforcement Task Forces (OCDETF), etc.)." The Office of Justice
Programs (OJP) Bureau of Justice Assistance (BJA) is responsible for administering the SWBPI
program and they define multi-jurisdictional task forces (MJTF) as follows:




                                              - 35 -
                                                                                             APPENDIX IV 


David M. Shereen
August 30, 2010
Page 4

        A MJTF is a cooperative law enforcement effort involving two or more criminal justice
        agencies, with jurisdiction over two or more areas, sharing the common goal of
        addressing drug control or other violent crime problems. MJTFs allow law enforcement
        agencies in different jurisdictions to work together as a single enforcement entity with the
        ability to improve communication, share intelligence, and coordinate activities. This
        allows for more efficient use of resources and targeting of offenders whose activities
        cross jurisdictional boundaries.1

Project Safe Neighborhoods Task Force (PSN)

PSN is a nationwide commitment to reduce gun and gang crime by networking existing local
programs that target gun and gang crime and providing these programs with additional tools
necessary to be successful. Under this program the United States Department of Justice
(USDOJ) requires that each United States Attorney implement a local gun crime reduction effort
that contains each of the following five elements: partnerships, strategic planning, training,
outreach and accountability. This effort is identified by the USDOJ as a task force. Funding is
provided by USDOJ to implement the task force.2

As set forth in the most recently approved PSN program, the LADA provides a specially
assigned PSN Task Force Deputy District Attorney (DDA) who is a dedicated expert gun
prosecutor. This DDA meets monthly with the ATF, USAO and local law enforcement and
assists in determining which applicable gun laws, federal or state, provide the strongest
enforcement tool. Through the collaborative efforts of the LADA, ATF, and USAO, a filing
decision will be made on violent crimes involving a firearm as to the most appropriate venue for
prosecution (Attachment A).

Although a funded program, PSN clearly operates as a MJTF as defined by BJA, the group
which administers SWBPI. PSN, the ATF and USAO share a "common goal" in "addressing
violent crime problems." In addition they regularly "work together to improve communication,
share intelligence and coordinate activities." As the first set of Guidelines allowed claims and
reimbursement for "investigations resulting from multi-jurisdictional task forces," we ask that
you reverse all questioned costs regarding PSN between October 1, 2001 and September 30,
2006.

Total exception amount to be reversed under PSN: $405,130




1
  Office of Justice Programs, Bureau of Justice Assistance; What are multijurisdictional taskforces (MJTFs)?,
www.ojp.usdoj.gov/BJA/evaluation/program-law-enforcement/forces1.htm
2
  www.psn.gov/about/index.html


                                                     - 36 -
                                                                                  APPENDIX IV 


David M. Shereen
August 30, 2010
Page 5


Inland Regional Narcotic Enforcement Team (IRNET)

IRNET is a major narcotic MJTF which is comprised of various San Bernardino County, federal
and state law enforcement officers.3 They are listed as a MJTF that works with HIDTA targeting
major narcotic dealers and money launderers that operate in and through the LA-HIDTA Inland
Empire region of San Bernardino.4 T he Report lists thirteen IRNET cases as questioned
reimbursements. Each of these was claimed between FY 2002 and FY 2006 pursuant to the first
Guidelines which allowed claims from cases for investigations from MJTFs.

Total exception amount to be reversed under IRNET: $94,254

Extradition

Extradition cases were not declared ineligible cases for reimbursement until October 1, 2006
(second Guidelines). Until then the Guidelines only provided a description of eligible cases
which were described as follows:

        An eligible case is any federally initiated and declined-referred criminal case that was
        prosecuted by a state or county prosecutor and disposed of during an eligible reporting
        period. Jurisdictions providing pre-trial detention for eligible case defendants are also
        eligible for funds.

Extradition cases are criminal cases filed by deputy district attorneys under Penal Code §1551.1.

A total of71 extradition cases for which we received reimbursement were resolved and claimed
prior to the issuance of the second set of Guidelines which specifically made them ineligible.
This error resulted in a total of$243,791 in questioned costs which should be reversed
(Attachment B).

Total exception amount to be reversed under extradition cases: $243,791

FINDING NO.2

RECEIVED EXCESS REIMBURSEMENTS TOTALING $415,938 FOR 44 CASES
THAT WERE INVESTIGATED OR PROSECUTED DURING CONCURRENT
PERIODS OF TIME WITH CASES INVOLVING THE SAME DEFENDANT THAT
WERE ALSO SUBMITTED FOR REIMBURSEMENT.
3
  High-Intensity Drug Trafficking Areas, Office o/National Drug Control Policy,
www ncjrs.gov/ondcppubs/publications/enforce/hidta2001 /la-fs.html.
4
  www.sbcounty.gov/sheriff/specialized division/Narcotics.asp




                                                     - 37 -
                                                                              APPENDIX IV 


David M. Shereen
August 30, 2010
Page 6


RESPONSE:

A number of questioned costs regarding concurrent prosecutions were made in error as they were
based on name alone. A subsequent examination reveals that they were different people based
upon various identifying information. These cases are identified in Attachment C.

In addition, a number of cases were incorrectly identified as concurrent prosecutions based upon
the use of the release date instead of the disposition date. Pursuant to an email from Joseph
Husted, Policy Advisor for the BJA, cases are concurrent if their dispositions are on the same
day (see Attachment D). The following cases were questioned however; their disposition dates
were different:

   	 BA317744 -Fernando Meza. The disposition date for this case was March 5, 2008. His
      other case (BA318012) involved different charges and had a disposition date of February
      28, 2008. The questioned amount is $7,163.

   	 KA074743 -Teddy Trujillo. The disposition date for this case was March 16, 2007. His
      other case (KA074743) involved a different DDA and Judge and had a disposition date of
      March 15, 2007. The questioned amount is $5,245.

   	 LA044918 -Jeffrey Weaver. The disposition date for this case was March 7, 2008. His
      other case (pA046378) involved different charges and had a disposition date of January
      7, 2008. The questioned amount is $7,163.

   	 6WA13624 -Gabor Weibl. The disposition date for this case was February 13, 2008.
      His other case (7W Al063 8) involved different charges and had a disposition date of
      October 31, 2007. The questioned amount is $7,163.

Total exception amount to be reversed under cases that were concurrently prosecuted: $44,868

FINDING NO. 3

RECEIVED EXCESS REIMBURSEMENTS TOTALING $303,281 FOR 106 CASES
SUBMITTED UNDER BOTH THE PROSECUTION AND PRE-TRIAL DETENTION
CATEGORY THAT DID NOT MEET THE REQUIREMENTS FOR PRETRIAL
DETENTION REIMBURSEMENT.




                                            - 38 -
                                                                                APPENDIX IV 


David M. Shereen
August 30, 2010
Page 7


RESPONSE:

Ten cases are listed in error as questioned costs under this finding as we did not claim nor
receive reimbursement for detention. Neither arrest nor release dates were provided to SWBPI
when the claims for these cases were submitted. These cases are identified in Attachment E.
Each case has a questioned reimbursement of$3,750.

Total exception amount to be reversed under pretrial detention services: $37,500

FINDING NO.4

RECEIVED UNALLOWABLE REIMBURSEMENTS TOTALING $258,508 FOR 100
CASES THAT INCLUDED INCARCERATION COSTS AFTER THE CASE WAS
DISPOSED.

RESPONSE:

A number of reimbursements identified as unallowable on the basis they were for post
disposition detention were incorrectly identified as exceptions by audit staff. The case
information supporting our rebuttal of these findings is as follows:

   	 Case number VA087073 had a disposition date of 02/01/2005. The auditor determined
      the booking date to be 12/21/2005 which would be post-disposition. However, the actual
      date set forth in the Sheriff's Data indicated the actual booking date to be 1/21/2005.
      This error led to a questioned cost of $551.
   	 Case number Y A060744 had a disposition date of 03/14/2005. The auditor determined
      the booking date to be 03/30/2005 which would be post-disposition. However, the actual
      date set forth in the Sheriff's Data indicated the actual booking date to be 1/27/2005. This
      error led to a questioned cost of $1,653.
   	 Case number BA261484 had a disposition date of 03/16/2005. The auditor determined
      the booking date to be 04/15/2005 which would be post-disposition. However, the actual
      date set forth in the Sheriff's Data indicated the actual booking date to be 4/15/2004. This
      error led to a questioned cost of $2,204.

Total exception amount to be reversed under cases reimbursed/or incarceration after
disposition category: $4,408




                                              - 39 -
                                                                               APPENDIX IV 


David M. Shereen
August 30, 2010
Page 8


FINDING NO.5

RECEIVED UNSUPPORTED REIMBURSEMENTS TOTALING $23,848 FOR FIVE
CASES FOR WHICH THE SUPPORTING CASE FILE COULD NOT BE FOUND.

RESPONSE:

Of the five cases that could not be found, one case, BA245096, was resolved in FY 2005.
Pursuant to the Guidelines, this puts the case beyond the three years that LADA is required to
retain documentation for SWBPI funds.

Total amount to be restored under cases where file could not be found: $2,508

FINDING NO.6

RECEIVED UNALLOWABLE REIMBURSEMENTS TOTALING $19,066 FOR SEVEN
CASES THAT WERE SUBMITTED IN THE WRONG QUARTER.

RESPONSE:

All seven of these cases were claimed under the first set of Guidelines. When LADA first began
claiming reimbursements under SWBPI, the window under which claims could be submitted
came quickly after the close of each quarter of the FFY. As a result, LADA missed deadlines for
several quarters and received no reimbursements. In response, LADA collected and analyzed all
data for the quarter approximately two weeks before the end of the quarter in order to make a
timely claim. This left a few cases that would resolve between that time and the end of the FFY
quarter. (An examination of the data shows that all of the cases claimed occurred within the last
two weeks of the previous quarter). These cases were included in the next quarter's claiming.

The first Guidelines provided no guidance as to when cases had to be claimed. It was not until
October 1, 2006 that the Guidelines specifically provided that cases are "...eligible for SWBPI
submission only during the reporting period in which the case was resolved." As a result, the
questioned costs relating to these seven cases should be reversed.




                                             - 40 -
                                                                            APPENDIX IV

David M. Shereen
August 30, 2010
Page 9


                   CASES REIMBURSED IN THE WRONG QUARTER
             CASE        QUARTER      DISPOSITIO     AMOUNT
              NO.       SUBMITTED       N DATE     QUESTIONED
          BA275455        FY 05-2      12/22/2004          $3,306
          NA063868        FY 05-2      12/22/2004           2,204
          BA263418        FY 05-2      12/20/2004               0
          BA250165        FY 05-2      12/29/2004           4,408
          BA248527        FY 05-2      12/29/2004           4,408
          BA242960        FY 05-3      03/21/2005           2,370
          BA242960        FY 05-3      03/21/2005           2,370
          Total                                          $19,066



Total exception amount to be reversed under cases submitted in the wrong quarter: $19,066

FINDING NO. 7

RECEIVED EXCESS REIMBURSEMENTS TOTALING $12,500 FOR FOUR CASES
THAT WERE ERRONEOUSLY SUBMITTED IN THE WRONG REIMBURSEMENT
CATEGORY.

RESPONSE:

Case number LA043736 was correctly claimed under the category of 31-90 days. This case was
submitted in FFY 04-1. The first proceeding date was 08/25/2003 and the disposition date was
10/09/2003 resulting in a difference of 45 days. The questioned amount is $2,500.

Case number BA233477 was correctly claimed under the category of 91+ days. This case was
submitted in FFY 02-All. The disposition date was incorrectly shown as 08/16/2002. The actual
sentencing/disposition date was 10/17/2002 which would mean there was a difference of 106
days between arrest and sentence. The amount questioned was $2,500.

Case number NA054507 was correctly claimed under the category of 91+ days (Defendant 02,
Gilbert Voci). This case was submitted in FY 03-1 &2. The arrest date was 10/31/2002. The
disposition date was incorrectly shown as 11/22/2002. The actual sentencing/disposition date
was 02/26/2003 which would mean there was a difference of 118 days between arrest and
sentence. The amount questioned was $5,000.

Case number BA221735 was correctly claimed under the category of31-90 days. This was a
two defendant case (Diaz and Rivera). According to the Sheriff's Data, both defendants were
arrested on 08/31/2001. The case was filed on 09/04/2001. Diaz pled no contest on 09/20/2001
and was sentenced on 10/18/2001 (disposition date). Rivera pled guilty on 10/02/2001 and was



                                           - 41 -
                                                                                   APPENDIX IV 


David M. Shereen
August 30, 2010
Page 10


sentenced the same day (disposition date). Our understanding has been that the case start date is
the date of arrest and, if no arrest, it would be the filing date or first proceeding date. This would
put the case length for Diaz at 48 days and Rivera at 32 days. The PIMS Adult Case
Management screen prints are included as Attachment F. The amount questioned was $2,500.

Total exception amount to be reversed under cases submitted under the wrong reimbursement
category: $12,500

SUMMARY

Contested Findings

Based on the information and supporting documentation provided in our response to the Draft
Audit Report, the LADA requests that the following questioned costs be reversed:

      Not Federally Initiated/Extradition: $743,175
      Concurrently Prosecuted: $44,868
      Claimed as both, no detention: $37,500
      Detention after Prosecution: $4,408
      Missing Files: $2,508
      Wrong Quarter: $19,066
      Wrong Reimbursement Category: $12,500

Total Contested Findings: $864,025

Uncontested Findings

The LADA concurs with the remaining findings and has taken the necessary remedial action to
ensure that future claims are prepared and submitted in accordance with the appropriate
Guidelines in effect during the claiming period(s).

Total Uncontested Findings: $1,425,637




                                               - 42 -
                                                                              APPENDIX IV 


David M. Shereen
August 30, 2010
Page 11


If you or your staff require additional supporting documentation or have any questions regarding
the information provided in this letter, please contact Margo Baxter at (213) 974-9934 or via
email at mbaxter@da.lacounty.gov or Kimberly Leong at (213) 202-7718 or via email at
kleong@da.lacounty.gov.


Very truly yours,


/s/
STEVE COOLEY
District Attorney


mb/kl


c: Auditor-Controller
   Sheriff Public
   Defender
   Alternate Public Defender




                                            - 43 -
                                                                 APPENDIX V 



        OFFICE OF THE INSPECTOR GENERAL COMMENTS 

   ON LOS ANGELES COUNTY’S RESPONSE TO THE DRAFT REPORT 


      The Office of the Inspector General (OIG), Audit Division, provided a
draft of this audit report to OJP and to Los Angeles County. Subsequent to
the issuance of the Draft Report, we received previously requested
documentation related to the allowability of a significant number of cases
that were previously questioned as not being federally initiated. Specifically,
there were 391 cases initiated by the LA IMPACT task force for which, prior
to the issuance of the draft report, Los Angeles County was unable to
provide documentation supporting that the task force included federal law
enforcement agency participants.

      Based on the additional documentation, we found that the LA IMPACT
task force did include federal law enforcement agency participants. As a
result, we determined that the 391 cases initiated by the LA IMPACT task
force were federally initiated and removed the associated $2,393,789 in
questioned costs from our findings. Although the questioned costs related to
federal initiation were removed for these cases, some of the subject cases
were partially or completely unallowable under other SWBPI guidelines.
Consequently, we adjusted the questioned costs in other categories to
account for the additional questioned costs related to these cases that were
not previously questioned to avoid double-counting. We adjusted the
questioned costs throughout this report to accurately reflect the changes in
unallowable cases and questioned costs resulting from the additional
documentation provided by Los Angeles County subsequent to the issuance
of the draft report.

      In addition, the OIG has identified several issues in Los Angeles
County’s response to our draft report, see Appendix IV, that we believe
should be addressed. As a result, we are providing the following comments
on Los Angeles County’s response to the draft report.

       Los Angeles County’s response, on page 36 of this report, states,
“[T]he first set of Guidelines defined Federally Initiated Cases two ways.
First, there were cases resulting ‘…from a criminal investigation or arrest
involving federal law enforcement authorities…” The second category
included ‘investigations resulting from multi-jurisdictional task forces…’”

       In its response, Los Angeles County appears to imply that cases
resulting from a multi-jurisdictional task force do not require federal law
enforcement participation. We disagree with Los Angeles County’s
interpretation of the SWBPI guidelines. The criteria cited by Los Angeles
County is not mutually exclusive. The guidelines states, “A federally


                                    - 44 -
                                                                 APPENDIX V 



initiated case results from a criminal investigation or an arrest involving
federal law enforcement authorities for a potential violation of federal
criminal law.” This sentence unequivocally requires federal law enforcement
authorities to be present in the investigation or arrest. The second sentence
states, “This may include investigations resulting from multi-jurisdictional
task forces…” When read in context, it is clear that multi-jurisdictional task
force cases are only allowable if the case meets the requirements of the first
sentence that a federal law enforcement authority is involved in the
investigation or arrest.

       Los Angeles County’s response, on page 37 of this report, states that
its Project Safe Neighborhoods grant program (PSN), “is a nationwide
commitment to reduce gun and gang crime . . . [u]nder this program the
United States Department of Justice (USDOJ) requires that each United
States Attorney implement a local gun crime reduction effort.” Los Angeles
County’s response also states, “the LADA provides a specially assigned PSN
Task Force Deputy District Attorney (DDA) who is a dedicated expert gun
prosecutor. This DDA meets monthly with the ATF [Bureau of Alcohol,
Tobacco, Firearms and Explosives], USAO [United States Attorney’s Office]
and local law enforcement and assists in determining which applicable gun
laws, federal or state, provide the strongest enforcement tool. Through the
collaborative effort of the LADA, ATF, and USAO, a filing decision will be
made on violent crimes involving a firearm as to the most appropriate venue
for prosecution . . . PSN, the ATF and USAO share a ‘common goal’ in
‘addressing violent crime problems.’ In addition they regularly ‘work
together to improve communications, share intelligence and coordinate
activities.’”

      None of the activities of the PSN program described by Los Angeles
County met the definition of federal initiation, which requires that a federal
law enforcement agency is involved in the investigation or arrest. Further,
we reviewed case files on site, none of the case files reviewed from the PSN
grant program showed any federal law enforcement agency involvement.
Therefore, Los Angeles County’s PSN cases are not allowable for SWBPI
reimbursement pursuant to the guidelines.

       Los Angeles County’s response, on page 38 of this report, states,
“IRNET [Inland Regional Narcotic Enforcement Team] is a major narcotic
MJTF [multi-jurisdictional task force] which is comprised of various
San Bernardino County, federal and state law enforcement officers. They are
listed as a MJTF that works with HIDTA…”

       Los Angeles County provided no evidence that federal law enforcement
officers participated in the criminal investigations or arrests related to the


                                    - 45 -
                                                                APPENDIX V 



IRNET cases. Furthermore, none of the IRNET cases we reviewed on site
showed any indication that the cases were federally initiated. Therefore,
Los Angeles County’s IRNET cases are not allowable for SWBPI
reimbursement pursuant to the guidelines.

       Los Angeles County’s response, on page 38 of this report, states,
“Extradition cases were not declared ineligible cases for reimbursement until
October 1, 2006 (second Guidelines). . . Extradition cases are criminal cases
filed by deputy district attorneys under [California] Penal Code §1551.1.”

       We disagree with Los Angeles County’s interpretation of the SWBPI
guidelines. Extradition cases have always been unallowable if the original
case did not meet the definition of federal initiation. The extradition cases
claimed by Los Angeles County were locally initiated cases for which federal
assistance was requested for the extradition. The subsequent guidelines
only provided clarification on this issue and cannot be interpreted to mean
that extradition cases were allowable prior to the issuance of the second set
of guidelines. While the original case may have been eligible for SWBPI
reimbursements if it was federally initiated, a subsequent extradition charge
is not allowable. Further, SWBPI cases are only allowable for “a potential
violation of federal law.” Violation of the California Penal Code is not a
violation of federal law. The additional language in the second set of
guidelines declaring extradition cases unallowable was merely to declare an
already standing rule.

      Los Angeles County’s response, on page 39 of this report, states, “A
number of questioned costs regarding concurrent prosecution were made in
error as they were based on name alone. A subsequent examination reveals
that they were different people based upon various identifying information.”

      Based on the subsequent information provided by Los Angeles County,
we find that the questioned costs totaling $18,134 for three cases has been
resolved; as a result, the questioned costs have been removed from this
report. However, the questioned costs associated with the post-trial
detention finding have increased by $2,863 because case BA260796 also
had post-trial detention that was not questioned in the draft report since the
entire case was questioned under concurrent prosecution. It should also be
noted that we provided Los Angeles County a list of the case numbers,
names, and dates of the cases questioned for concurrent prosecution on
June 21, 2010, to allow Los Angeles County time to identify any such cases,
and provide the auditors with supporting documentation verifying the
defendants were different individuals. Los Angeles County did not provided
any additional information related to these cases by the time the draft report



                                    - 46 -
                                                                 APPENDIX V 



was issued on July 26, 2010, over 1 month after our original information
request.

      Los Angeles County’s response, on page 39 of this report, states, “In
addition, a number of cases were incorrectly identified as concurrent
prosecutions based upon the use of the release date instead of the
disposition date.”

      The four disposition dates Los Angeles County listed in their response
on page 39 match the disposition dates the auditors used in their analysis
for those four cases.

      Los Angeles County’s response, on page 39 of this report, states,
“Pursuant to an email from [OJP employee], Policy Advisor for the BJA
[Bureau of Justice Assistance], cases are concurrent if their dispositions are
on the same day…” They go on to state the cases had either “different
charges” or “a different DDA and Judge…”

       The guidelines clearly state, “…one defendant charged in multiple
cases should be claimed as only one case to the extent that defendant’s
cases are being investigated and/or prosecuted during concurrent periods of
time.” The guidelines are explicitly clear that SWBPI recipients cannot
submit multiple claims for the same defendant, if the time periods are
concurrent. Additionally, the BJA e-mail cited does not fully address the
issue. The e-mail only asked about concurrent prosecutions, and mentions
nothing about the ineligibility resulting from concurrent investigations.
Furthermore, the example given to OJP by Los Angeles County does not
reflect the Los Angeles County cases we found to be unallowable. The
hypothetical situation in the e-mail asked about two cases with disposition
dates of June 30 and September 2, 2009, indicating the cases were
unrelated. The first case mentioned in the Los Angeles County response,
BA317744, had an identical arrest date, jail booking date, and jail release
date, as the case being questioned. The second case mentioned, KA074743,
also had an identical arrest date, jail booking date, and jail release date as
the case being questioned. The disposition dates on these two cases were
within a week of the concurrent case claimed for SWBPI reimbursement.
Finally, the last two cases mentioned in the response, LA044918 and
6WA13624, had identical jail booking and release dates as the cases
questioned. All information related to these cases supports that the cases
were investigated during concurrent periods of time and are unallowable
under SWBPI guidelines.

      Los Angeles County’s response, on page 40 of this report, states, “Ten
cases are listed in error as questioned costs under this finding [receiving


                                    - 47 -
                                                                APPENDIX V 



excess reimbursement for cases submitted under both the prosecution and
pre-trial detention category that did not meet the requirements for pre-trial
detention reimbursement] as we did not claim nor receive reimbursement
for detention. Neither arrest nor release dates were provided to SWBPI
when the claims for these cases were submitted.”

      SWBPI recipients were not required to provide arrest or release dates
to OJP until FY 2008. Prior to this, SWBPI recipients simply reported the
number of cases to be reimbursed, without providing any information about
the cases. Therefore, Los Angeles County is correct in that, “Neither arrest
nor release dates were provided…” However, these cases were claimed as
both prosecution and pre-trial detention cases based on case reconciliation
shown on page 7. If they cases had not been claimed as both cases as
Los Angeles County asserts, the reconciliation on page 7 would have shown
that the both cases claimed by Los Angeles County were understated and
the prosecution only cases were overstated.

      Los Angeles County’s response, on page 40 of this report, states, “A
number of reimbursements [were] identified as unallowable on the basis
they were for post-disposition detention . . . Case number VA087073 had a
disposition date of 02/01/2005. . . Case number YA060744 had a disposition
date of 03/14/2005. . . Case number BA261484 had a disposition date of
03/16/2005.”

        Based on the subsequent information provided by Los Angeles County,
we found that the questioned costs totaling $4,408 for three cases has been
resolved; as a result, the questioned costs have been removed from this
report. However, it should be noted that we provided Los Angeles County a
list of the case numbers, names, disposition date, and jail dates related to
the cases questioned for post-disposition detention on June 28, 2010, so
that they could identify any cases that might have multiple booking and
release dates. Los Angeles County did not provided any additional
information related to these cases by the time the draft report was issued on
July 26, 2010, almost 1 month after our original information request.

       Los Angeles County’s response, on page 41 of this report, states, “Of
the five cases that could not be found, one case, BA245096, was resolved in
FY 2005. Pursuant to the Guidelines, this puts the case beyond the three
years that LADA is required to retain documentation for SWBPI funds.”

      We agree with Los Angeles County’s response; as a result, the
questioned costs totaling $2,508 for one case has been removed from this
report.



                                    - 48 -
                                                                APPENDIX V 



       Los Angeles County’s response, on page 41 of this report, states,
“When LADA first began claiming reimbursements under SWBPI, the window
under which claims could be submitted came quickly after the close of each
quarter of the FFY. As a result, LADA missed deadlines for several quarters
and received no reimbursements. In response, LADA collected and analyzed
all data for the quarter approximately two weeks before the end of the
quarter in order to make a timely claim. This left a few cases that would
resolve between that time and the end of the FFY quarter. (An examination
of the data shows that all of the cases claimed occurred within the last two
weeks of the previous quarter). These cases were included in the next
quarter's claiming.”

      SWBPI claimants are responsible for submitting cases in the correct
quarter. If a claimant misses a claiming window, they are unable to claim
those cases in subsequent quarters.

       Los Angeles County’s response, on page 41 of this report, states, “All
seven of these cases [that were submitted in the wrong quarter] were
claimed under the first set of Guidelines. . . The first Guidelines provided no
guidance as to when cases had to be claimed. It was not until
October 1, 2006 that the Guidelines specifically provided that cases are
‘…eligible for SWBPI submission only during the reporting period in which the
case was resolved.’”

      Although, the subsequent guidelines provided clarification on this
issue, the SWBPI website has always stated the applicable reporting period
for case submissions when a submission window was open. Adding the rule
to the guidelines simply re-iterated information already presented on the
SWBPI homepage, and cannot be interpreted to mean that the rule did not
exist prior to the second set of guidelines being issued.

     Los Angeles County’s response, on page 42 of this report, states,
“Case number LA043736 was correctly claimed under the category of
31-90 days. . . the disposition date was 10/09/2003…”

      The master case list provided by Los Angeles County to the auditors
does list the disposition date as October 10, 2003. However, based on our
review of the case file, the case was disposed on September 5, 2003. Using
the correct disposition date, the length from arrest to disposition was only
12 days; as a result, the case was claimed in the incorrect reimbursement
category.

     Los Angeles County’s response, on page 42 of this report, states,
“Case number BA233447 [sic] was correctly claimed under the category of


                                    - 49 -
                                                                 APPENDIX V 



91+ days. . . The disposition date was incorrectly shown as 08/16/2002.
The actual sentencing/disposition date was 10/17/2002 which would mean
there was a difference of 106 days between arrest and sentence.”

       The disposition date of August 16, 2002, was provided by Los Angeles
County in its master case list, from the column titled “Dispo Date.” The
October 17, 2002, date is the sentencing date according to the master case
list. SWBPI guidelines give the example of “dismissals, pleas, [and]
convictions” as acceptable disposition dates. Using the correct disposition
date, the length from arrest to disposition was only 45 days; as a result, the
case was claimed in the incorrect reimbursement category.

      Los Angeles County’s response, on page 42 of this report, states,
“Case number NA054507 was correctly claimed under the category of
91+ days. . . The disposition date was incorrectly shown as 11/22/2002.
The actual sentencing/disposition date was 02/26/2003 which would mean
there was a difference of 118 days between arrest and sentence.”

      Similar to our response above, the disposition date of
November 22, 2002, was taken from Los Angeles County’s master case file,
from the column titled “Dispo Date.” The February 26, 2003, date is the
sentencing date according to the master case list. However, the sentencing
date is not the disposition date. SWBPI guidelines gives the example of
“dismissals, pleas, [and] convictions” as acceptable disposition dates. Using
the correct disposition date of November 22, 2002, there were only 45 days
from case arrest to disposition; as a result, the case was claimed in the
incorrect reimbursement category.

     Los Angeles County’s response, on page 42 of this report, states,
“Case number BA221735 was correctly claimed under the category of
31-90 days. . . [Defendant was] arrested on 08/31/2001. The case file was
opened on 09/04/2001. . . [Defendant] pled guilty on 10/02/2001. . . This
would put the case length for. . . [defendant] at 32 days.”

      The arrest date of September 4, 2001, was taken from Los Angeles
County’s master case file, from the column titled “Arst Date.” According to
the records provided by Los Angeles County to the auditors, the date of
August 31, 2001, was the “File Date.” SWBPI guidelines state, “For
purposes of the SWBPI, case disposition refers to the time between a
suspect’s arrest and the resolution (e.g., dismissals, pleas, convictions,
etc.)…” The guidelines further state that only “[i]n the unlikely event that a
case defendant was not physically arrested, acceptable alternative start
dates include the date of indictment, or the date of the initial criminal
summons or summons to appear.” The guidelines are clear that the arrest


                                    - 50 -
                                                               APPENDIX V 



date, if the defendant was arrested, should be used. Using the correct arrest
date of September 4, 2001, there were only 29 days from case arrest to
disposition; as a result, the case was claimed in the incorrect reimbursement
category.




                                   - 51 -
                                                                                 APPENDIX VI

                                                    U.S. Department of Justice

                                                    Office of Justice Programs

                                                   Office of Audit, Assessment, and Management




                                                  Washington, D.C. 20531




MEMORANDUM TO:                David M. Sheeren
                              Regional Audit Manager
                              Office of the Inspector General
                              Denver Regional Audit Office

FROM:                         Maureen A. Henneberg
                              Director

SUBJECT:                      Response to the Draft Audit Report, Office of Justice Programs,
                              Southwest Border Prosecution Initiative Funding, Received by
                              Los Angeles County, California

This memorandum is in response to your correspondence, dated July 26, 2010, transmitting the
above draft audit report for Los Angeles County (County). We consider the subject report
resolved and request written acceptance of this action from your office.

The report contains seven recommendations and $4,572,227 in questioned costs. The following
is the Office of Justice Programs’ (OJP) analysis of the draft audit report. For ease of review, the
draft audit report recommendations are restated in bold and are followed by OJP’s response.

1. 	   We recommend that OJP remedy the $3,650,312 in questioned costs received by
       Los Angeles County for 663 cases that were not Federally initiated.

       We agree with the recommendation. We will coordinate with the County to remedy
       the $3,650,312 in questioned costs related to the 663 cases that were not Federally
       initiated and submitted for reimbursement under the Southwest Border Prosecution
       Initiative program.

2. 	   We recommend that OJP remedy the $348,686 in questioned costs received by
       Los Angeles County for 44 cases that were investigated or prosecuted during
       concurrent periods of time with cases involving the same defendant that were also
       submitted for reimbursement.

       We agree with the recommendation. We will coordinate with the County to remedy
       the $348,686 in questioned costs related to the 44 cases that were investigated or
       prosecuted during concurrent periods of time with cases involving the same defendant
       that were also submitted for reimbursement.


                                              - 52 -
                                                                               APPENDIX VI 



3. 	   We recommend that OJP remedy the $288,371 in questioned costs received by
       Los Angeles County for 106 cases that were erroneously claimed as both prosecution
       and pre-trial detention that did not meet the requirements for pre-trial detention
       reimbursement.

       We agree with the recommendation. We will coordinate with the County to remedy
       the 288,371 in questioned costs received by the County for 106 cases that were
       erroneously claimed as both prosecution and pre-trial detention, that did not meet the
       requirements for pre-trial detention reimbursement.

4. 	   We recommend that OJP remedy the $235,251 in questioned costs received by
       Los Angeles County for 100 cases that included incarceration costs after the case
       was disposed.

       We agree with the recommendation. We will coordinate with the County to remedy
       the $235,251 in questioned costs related to the 100 cases that included incarceration costs
       after the case was disposed.

5. 	   We recommend that OJP remedy the $23,848 in unsupported questioned costs
       received by Los Angeles County for five cases in which the supporting case file could
       not be located.

       We agree with the recommendation. We will coordinate with the County to remedy
       the $23,848 in questioned costs received by the County for five cases in which the
       supporting case file could not be located.

6. 	   We recommend that OJP remedy the $15,760 in questioned costs received by
       Los Angeles County for seven cases that were submitted in the wrong quarter.

       We agree with the recommendation. We will coordinate with the County to remedy
       the $15,760 in questioned costs related to seven cases that were submitted in the wrong
       quarter.

7. 	   We recommend that OJP remedy the $10,000 in questioned costs received by
       Los Angeles County for four cases that were erroneously submitted in the wrong
       reimbursement category.

       We agree with the recommendation. We will coordinate with the County to remedy
       the $10,000 in questioned costs received by the County for four cases that were
       erroneously submitted in the wrong reimbursement category.




                                             - 53 -
                                                                            APPENDIX VI


We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc: 	   Jeffery A. Haley
        Deputy Director, Audit and Review Division
        Office of Audit, Assessment, and Management

        Tracey Trautman
        Deputy Director for Programs
        Bureau of Justice Assistance

        Jill Young
        Division Chief
        Bureau of Justice Assistance

        Amanda LoCicero 

        Budget Analyst         

        Bureau of Justice Assistance 


        Joseph Husted
        Policy Advisor
        Bureau of Justice Assistance

        Richard P. Theis

        Assistant Director

        Audit Liaison Group 

        Justice Management Division 


        OJP Executive Secretariat 

        Control Number 20101584 





                                            - 54 -
                                                            APPENDIX VII


                ANALYSIS AND SUMMARY OF ACTIONS 

                   NECESSARY TO CLOSE REPORT 



1.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $1,256,523 in
      questioned costs received by Los Angeles County for 272 cases that
      were not federally initiated.

2.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $397,804 in
      questioned costs received by Los Angeles County for 42 cases that
      were investigated or prosecuted during concurrent periods of time with
      cases involving the same defendant that were also submitted for
      reimbursement.

3.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $303,280 in
      questioned costs received by Los Angeles County for 106 cases that
      were erroneously claimed as both prosecution and pre-trial detention
      that did not meet the requirements for pre-trial detention
      reimbursement.

4.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $256,963 in
      questioned costs received by Los Angeles County for 97 cases that
      included incarceration costs after the case was disposed.

5.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $21,340 in
      unsupported questioned costs received by Los Angeles County for four
      cases for which the supporting case file could not be located.

6.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $19,066 in
      questioned costs received by Los Angeles County for seven cases that
      were submitted in the wrong quarter.

7.	   Resolved. This recommendation can be closed when we receive
      documentation supporting that OJP has remedied the $12,500 in
      questioned costs received by Los Angeles County for four cases that
      were erroneously submitted in the wrong reimbursement category.




                                   - 55 -
